<html>
<title> - COMMON SENSE JUSTICE FOR THE NATION'S CAPITAL: AN EXAMINATION OF PROPOSALS TO GIVE D.C. RESIDENTS DIRECT REPRESENTATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   COMMON SENSE JUSTICE FOR THE NATION'S CAPITAL: AN EXAMINATION OF 
         PROPOSALS TO GIVE D.C. RESIDENTS DIRECT REPRESENTATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2004

                               __________

                           Serial No. 108-218

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-625                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 2004....................................     1
Statement of:
    Henderson, Wade, esq., executive director, Leadership 
      Conference on Civil Rights; Kenneth W. Starr, former 
      solicitor general of the United States; former Judge, U.S. 
      Court of Appeals for the District of Columbia Circuit; Ilir 
      Zherka, executive director, D.C. Vote; Walter Smith, 
      executive director, D.C. Appleseed Center for Law and 
      Justice, Inc.; Betsy W. Werronen, chairwoman, the District 
      of Columbia Republican Committee; and Ted Trabue, regional 
      vice president for District of Columbia affairs, PEPCO; 
      Greater Washington Board of Trade..........................    63
    Rohrabacher, Hon. Dana, a Representative in Congress from the 
      State of California; and Hon. Ralph Regula, a 
      Representative in Congress from the State of Ohio..........     3
    Williams, Anthony A., Mayor, District of Columbia; and Linda 
      W. Cropp, chairwoman, Council of the District of Columbia..    30
Letters, statements, etc., submitted for the record by:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, prepared statement of.......................    53
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   174
    Cropp, Linda W., chairwoman, Council of the District of 
      Columbia, prepared statement of............................    39
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    20
    Henderson, Wade, esq., executive director, Leadership 
      Conference on Civil Rights, prepared statement of..........    67
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, information concerning party 
      planks.....................................................   165
    Regula, Hon. Ralph, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    12
    Rohrabacher, Hon. Dana, a Representative in Congress from the 
      State of California, prepared statement of.................     5
    Smith, Walter, executive director, D.C. Appleseed Center for 
      Law and Justice, Inc., prepared statement of...............    92
    Starr, Kenneth W., former solicitor general of the United 
      States; former Judge, U.S. Court of Appeals for the 
      District of Columbia Circuit, prepared statement of........    77
    Trabue, Ted, regional vice president for District of Columbia 
      affairs, PEPCO; Greater Washington Board of Trade, prepared 
      statement of...............................................   158
    Werronen, Betsy W., chairwoman, the District of Columbia 
      Republican Committee:
        Information concerning Republicans and D.C. voting rights   126
        Prepared statement of....................................   154
    Williams, Anthony A., Mayor, District of Columbia, prepared 
      statement of...............................................    33
    Zherka, Ilir, executive director, D.C. Vote, prepared 
      statement of...............................................    87

 
   COMMON SENSE JUSTICE FOR THE NATION'S CAPITAL: AN EXAMINATION OF 
         PROPOSALS TO GIVE D.C. RESIDENTS DIRECT REPRESENTATION

                              ----------                              


                        WEDNESDAY, JUNE 23, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, 
Lewis, Cannon, Blackburn, Waxman, Maloney, Cummings, Davis of 
Illinois, Clay, Watson, Van Hollen, Ruppersberger, and Norton.
    Staff present: David Marin, deputy staff director and 
communications director; Keith Ausbrook, chief counsel; Ellen 
Brown, legislative director and senior policy counsel; Howie 
Denis and Jim Moore, counsels; Robert Borden, counsel and 
parliamentarian; Rob White, press secretary; Drew Crockett, 
deputy director of communications; Teresa Austin, chief clerk; 
Brien Beattie, deputy clerk; Corinne Zaccagnini, chief 
information officer; Phil Barnett, minority staff director; 
Kristin Amerling, minority deputy chief counsel; Karen 
Lightfoot, minority communications director/senior policy 
advisor; Michelle Ash, minority senior legislative counsel; 
Rosalind Parker, minority counsel; Earley Green, minority chief 
clerk; Jean Gosa, minority assistant clerk; and Cecelia Morton, 
minority office manager.
    Chairman Tom Davis. Good morning. I'm going to give an 
opening statement, and Mr. Waxman has to leave. Dana, I'm going 
to go to Mr. Waxman's statement then we'll go to you, then I'll 
give an opening statement. Thanks for being here. I'm conscious 
of your time and when Mr. Regula gets in, conscious of his. We 
appreciate your being here.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman, for allowing me to 
give my opening statement before you give yours and Mr. 
Rohrabacher, thank you as well.
    I appreciate the fact that we're having this hearing, 
unfortunately I'm going to have a conflict between the time, so 
I'm not going to be able to be here for this full hearing. But 
I want everyone to know that I think the chairman is doing a 
great service by holding this hearing. I think it's important 
that we look at the issue of voting rights for D.C. citizens. I 
am a strong supporter of giving the District of Columbia 
congressional representation.
    This hearing to review all the legislative proposals is an 
important step forward. I welcome all the discussion that will 
lead to equal voting rights for District residents. We should 
not deny voting representation to over half a million American 
citizens who live in Washington, DC, have no voting 
representation on national issues considered by Congress. They 
have no representation on issues of taxation or warmaking 
authority, foreign policy, spending on transportation 
initiatives, homeland security, health and welfare and the 
environment. These national issues affect the people of the 
District of Columbia just like they affect other people who are 
our constituents around this country.
    In addition, often Congress passes measures such as the 
recent school voucher law, directed specifically and 
exclusively at D.C. residents. Yet the residents of the 
District have a limited voice in the passage. To make matters 
worse, laws passed by the locally elected D.C. City Council 
must be sent to Congress for review. In fact, some non-
controversial items were on the House floor earlier this week, 
and we were able to move them quickly. But officially, Congress 
sometimes refuses to approve measures passed by the D.C. City 
Council, and has even overturned citizen passed ballot 
initiatives.
    The residents of other local jurisdictions do not have 
Congress overturning their local laws or prohibiting those laws 
from taking effect in the first place. Eleanor Holmes Norton 
does an incredible job for the District of Columbia. Without 
the ability to cast a vote on the House floor, she has been 
able to achieve stunning results for the District. However, 
non-voting representation is not acceptable.
    I have supported her legislation to give the District of 
Columbia representation in the House and the Senate, and I 
believe that if we can't do both, we ought to put out on the 
House floor a bill to give the D.C. residents a vote in the 
House of Representatives. I don't think it ought to be tied 
with anything else. It is a matter of great sense and 
consistent with our values as a Nation to give democracy to the 
people of the District of Columbia. The leadership of the House 
is willing to spend billions of dollars to try to bring 
democracy to Iraq. Why not allow a vote on the House floor to 
give the District of Columbia representation?
    The only reason I've heard is that they're afraid that the 
District of Columbia may elect a Republican. Well, that's not a 
reason to deny people--[laughter]--I stand corrected. If they 
only would recognize the fact that maybe even a Republican can 
win in the District of Columbia. But the fact that the D.C. 
residents who voted in other elections are predominantly 
Democratic should not be a reason to deny them the ability to 
have over half a million people get a representative in the 
House itself.
    Mr. Chairman, I appreciate all your efforts. I know you are 
strongly committed to this equal rights for the District of 
Columbia, and I look forward to working with you on it.
    Chairman Tom Davis. Mr. Waxman, thank you very much.
    I'm going to go right now, we have our distinguished 
congressional panel here, Representative Regula, Chairman 
Regula and Chairman Rohrabacher, both chairmen of important 
subcommittees. And Dana, you were here first, I'll let you 
start, and we'll go to Mr. Regula. Then we'll go back to 
opening statements, then we have the Mayor and Chairman Cropp 
in the next panel.
    But let me just say, we appreciate both of you being here 
today. You both have innovative ideas and recognize that 
citizens of the city should have representation. You have 
innovative ideas about how to get that, and we appreciate your 
sharing those thoughts with us.

   STATEMENTS OF HON. DANA ROHRABACHER, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF CALIFORNIA; AND HON. RALPH REGULA, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO

    Mr. Rohrabacher. Thank you, Mr. Chairman. I want to 
compliment you for your concern about the lack of congressional 
representation for the residents of our Nation's capital. No 
taxation without representation is a fundamental principle of 
our democratic society which since our founding has continually 
expanded the voting franchise. Today, thanks to the Uniformed 
and Overseas Citizens Absentee Voting Act, there is nowhere in 
the world that a U.S. citizen can move to, still owing Federal 
income tax and lose their rights to voting representation in 
the U.S. Congress, nowhere except, of course, our Nation's 
Capital, Washington, DC.
    I think that virtually every Member of this body, 
Republican or Democrat, who thinks about the situation would 
agree that it needs to be remedied. The dispute is not over 
whether D.C. residents should have voting representation, but 
over what form that representation should take. Naturally I 
believe that my own proposal, H.R. 3709, the District of 
Columbia Voting Rights Restoration Act, is the fairest and most 
practical of the solutions. As its name suggests, H.R. 3709 
would restore to Washington, DC, residents the same voting 
rights they had prior to Congress taking them away by the 
passage of the Organic Act of 1801.
    Under my Restoration Act, residents of our Nation's Capital 
would once again have the right to vote for, to run for, and to 
serve as, Maryland's U.S. Senators, U.S. Representatives and 
Presidential electors. And to provide some partisan balance, 
the Restoration Act adopts your idea, Mr. Chairman, of 
providing an additional representative for Utah. In addition to 
my bill, I am also submitting for your consideration 
legislative language that I believe will remove the issue on 
Utah redistricting as an impediment to moving forward D.C. 
voting rights. This language simply locks into place until 
after the next census the four district map that Utah has 
already enacted. Since that map is understood by all sides to 
be a three to one plan, it should erase the fears of the 
Democratic leadership that including Utah in a D.C. 
representation bill would provide an undue Republican 
advantage.
    Mr. Chairman, I could go on about the details of my bill, 
and I have attached questions and answers to my testimony that 
further describe H.R. 3709, but that's not what's the most 
important thing at this moment. What's most important is to get 
the bipartisan support to move a District of Columbia 
representation bill to the House floor, so that alternative 
proposals can be considered, and so that we finally can give 
the residents of the District of Columbia full and fair 
congressional representation.
    And finally, let me just note, Mr. Chairman, that I think 
it's sad that politics has gotten in the way of the voting 
rights of the people of the District of Columbia. But politics 
and democracy so often go together. We have to recognize that's 
part of the system that we live in. So let's try to find a way 
to take care of everybody's political problems and let's move 
forward in a way that will result in the people of the District 
of Columbia finally at last receiving their rights to vote for 
congressional representation and yes, and why don't we give 
them rights to vote for U.S. Senators as well? So thank you 
very much, Mr. Chairman.
    [The prepared statement of Hon. Dana Rohrabacher follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.007
    
    [GRAPHIC] [TIFF OMITTED] T6625.008
    
    [GRAPHIC] [TIFF OMITTED] T6625.009
    
    [GRAPHIC] [TIFF OMITTED] T6625.010
    
    [GRAPHIC] [TIFF OMITTED] T6625.011
    
    [GRAPHIC] [TIFF OMITTED] T6625.012
    
    Chairman Tom Davis. Dana, thank you very much. You've 
obviously given this a lot of thought. Your entire statement 
and the accompanying Q&A will be entered into the record. We 
appreciate it very much.
    Mr. Regula, thank you very much for being with us. Chairman 
Regula is a veteran of the old D.C. Committee, is that correct?
    Mr. Regula. Yes, Mr. Chairman.
    Chairman Tom Davis. You're welcome to come back here and 
sit any time you want.
    Mr. Regula. I have been several times.
    Mr. Regula. I'll summarize my testimony in the interest of 
time. I will say that I sat on the District of Columbia 
Appropriations Committee for several years, so I have some 
experience with it. Basically what I'm proposing is that it be 
a retrocession of D.C. into the State of Maryland from whence 
it came. We did a similar thing in the case of Virginia. This 
would allow the city to be a city in the State of Maryland. 
They therefore would be able to vote on State legislators, they 
would be able to vote on two U.S. Senators, and they'd be able 
to have a Congressperson representing basically the 
geographical area covered by the District of Columbia.
    I think there are other advantages. It would give the city 
access to the State of Maryland's educational program. That 
would enhance the support for education at all levels. It would 
give the city, the residents of the city access to economic 
development programs of the State of Maryland. It would give 
them access to the Highway Department of the State of Maryland 
and a whole host of other State agencies. I think in the 
interest of the residents, they would be best served by this 
approach it, while it does give them the voting rights that 
they seek.
    I think it's the only practical solution. Statehood is nice 
to talk about, but I don't anticipate that it's going to 
happen. By doing the retrocession program, the residents would 
benefit in all the different ways I suggested.
    Can it work? It works in Canada, where the city is part of 
the larger area, and yet has its own identity. It works in 
Rome, where the Vatican is carved out as a separate political 
subdivision. So I think this has a potential for working and 
has a potential for giving the residents voting rights, as well 
as quality of life issues that could be very helpful to them.
    I'll be glad to answer any questions.
    [The prepared statement of Hon. Ralph Regula follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.013
    
    [GRAPHIC] [TIFF OMITTED] T6625.014
    
    Chairman Tom Davis. Thank you both very much. Let me just 
say, Representative Regula, you've been a long time supporter 
of voting rights for the District. Representative Rohrabacher, 
you obviously put a lot of thought and hard work into this, and 
your staff has, and you're also a veteran of the D.C. 
Committee. I want to give you appropriate thanks for that.
    Dana, one of your interesting aspects of your plan is that 
it makes Maryland election law applicable within the District 
for the House and Senate elections, and you have some home rule 
advocates, you obviously have to sift through that, there's a 
lot of thought in the city about those. But at least you took 
care of the voting representation part at the national level. 
Do you want to address that at all?
    Mr. Rohrabacher. Home rule is addressed in this as well. 
There's no taking away home rule from the people of the 
District. That's within my legislation.
    Chairman Tom Davis. Mr. Regula, one of the issues that 
comes up with yours is you're basically retrocession except 
for, what would it be, like the Mall area, is that what we're 
looking at?
    Mr. Regula. Yes, it's what we carve out, and it's what 
they've done in Canada, carve out the governmental portions. 
When I say government, the U.S. Government. So that the areas, 
like along the Mall, would be retained as Federal property, and 
it would be the balance of the area that would become a city in 
the State of Maryland.
    Chairman Tom Davis. Interestingly, I've just remembered how 
we got here. It was 221 years and 2 days ago that the 
Philadelphia Mutiny, it was June 21, 1783--221 years ago--that 
the Mutiny appeared. This is when a group of pensioners from 
the Revolutionary War marched on the Continental Congress in 
Philadelphia, and it was the local militia that were 
sympathetic to the pensioners. They chased the Continental 
Congress across the river up into Trenton. It was at that point 
they considered it a Federal city, they didn't want it to be 
under the control of any city. That's what started this. We 
missed by 2 days, the hearing today, the anniversary, the 221st 
anniversary of that, it was called the Philadelphia Mutiny.
    Ralph, one of the interesting aspects you bring out that we 
have to address is the fact that the District still has three 
electoral votes in the Constitution. I was thinking we could 
build a condominium in there, fill it up with our friends and 
we could control three electoral votes at that point. D.C. 
could be part of Maryland and they could have voting 
representation and we could control the action every 4 years. 
[Laughter.]
    Mr. Regula. I think that should be addressed.
    Chairman Tom Davis. Nothing smooth, nothing's 100 percent 
smooth.
    Mr. Regula. Alexandria, as I said, came from retrocession 
to Virginia.
    Chairman Tom Davis. That's correct. There's the precedent. 
And as a matter of fact, Constitutionally it was never approved 
by the courts. But I think by the doctrine of laches, it would 
stay today if it were challenged. There are some Virginians who 
would like to give it back. But I'm not sure if the city would 
want it. But we don't need to go there.
    Mr. Rohrabacher. The people voting, if what we're talking 
about becomes law, of course will then have the understanding 
that their vote counts toward the electors in Maryland, and 
they actually have, they may have more influence on candidates 
rather than less influence.
    Chairman Tom Davis. That's right. Also, I note that from 
1790 to 1800, Dana, the residents of the District of Columbia 
who lived in Virginia voted with Virginia for Congress and in 
Maryland with Maryland for Congress. So we have that precedent 
that's consistent.
    Ms. Norton, any questions?
    Ms. Norton. I want to thank both of my good friends for 
their work on these two bills. I served with Mr. Rohrabacher on 
the old D.C. Subcommittee, and with Mr. Regula when he was on 
the D.C. Appropriations Subcommittee. These are Members, and 
among the few Members, who know the District very well in all 
of its details, because they have served on the committees, 
learned them and both were of considerable service to our city.
    As I will say, you of course have particularly in this last 
week in the Congress a lot else to do in this House. But I am 
going to make mention in my own opening statement for the 
gratitude I think the District of Columbia residents owe you in 
coming forward with bills. What we now have is a bipartisan 
consensus, there's got to be some approach. And here we've got 
three Republican bills, not my bill alone, but three bills, and 
not bills that have been put in politically, but bills by two 
Members who have thought deeply about the District.
    And I want it to be clear, from a Member who knows, that 
each of these approaches has support in the District of 
Columbia. Residents of the District of Columbia have been in 
touch with me, and even have come to meetings in my office. So 
the notion of leaping about where District residents are is 
something I certainly am unwilling to do.
    But the importance of these two bills is not that I have 
joined these bills, I have not endorsed these bills. I am not a 
co-sponsor of these new bills that have come in. But I went to 
the House floor when Mr. Regula and Mr. Rohrabacher put their 
bills in, in order to thank them before the full House for how 
they have advanced the cause of voting rights. We will never 
get to voting rights unless Republicans and Democrats sit down 
together and finally agree on a bill we all can agree upon.
    Therefore, the actions of these two Members who have 
particular knowledge of the District of Columbia to step 
forward is to be greeted, and I assure you will be greeted with 
great applause in the District of Columbia. You have today in 
coming forward to testify here, having given your own bills 
already, materially and very substantially advanced the cause 
of D.C. voting rights, and I want to personally thank each of 
you for what you've done.
    Mr. Rohrabacher. Thank you.
    Mr. Regula. Thank you.
    Chairman Tom Davis. I want to thank you both, two very well 
respected senior Republican Members. Thank you very much.
    Mr. Rohrabacher. Let me just note, when I was on the 
District of Columbia Committee, Chairman Dellums was my 
chairman. And of course, that's when the Democratic Party 
controlled the House of Representatives. Let me just note that 
Chairman Dellums was very fair to me personally on that 
committee, and I think he handled himself in a very dignified 
way in that we all got our say. I've been in some committees at 
times when I didn't feel like I was fairly treated. But in that 
committee, it really was, he did a good job. And what's 
important here is that politics over the years have gotten in 
the way of solving this problem. And not just politics on one 
side of the aisle, politics on both sides of the aisle, both 
parties have been maneuvering on this issue.
    Well, I think the approach that Mr. Regula and I have come 
up with in both of our proposals wipes away that politics, 
wipes away that problem and gives us a chance at both sides to 
come to a compromise that will end up giving the people of this 
city their rights for representation. And so it's about time we 
get on with it.
    Mr. Regula. I'd just like to comment on that. The important 
thing for the young people of this community is to have access 
to the finest education, as is the case throughout the Nation. 
I believe that one of these approaches could enhance the 
educational opportunity prospectively for the people of this 
city.
    Chairman Tom Davis. Well said. Thank you both for your 
time. Thank you very much.
    Before we get to our next panel, I'm going to read my 
opening statement. Ms. Norton, we'll go to yours, and I'll 
allow other Members to make opening statements or include them 
in the record.
    The District of Columbia is many things to many people. 
Home to more than half a million people of diverse backgrounds, 
capital of the free world, and a symbol of democracy. But 
perhaps most fundamentally, it is a creature of the 
Constitution. The District's unique Constitutional status and 
historic evolution and the fact that it has characteristics of 
a city and a State, in addition to its Federal component, 
leaves us with one of the most profound democratic paradoxes of 
our time: how to reconcile the framer's vision for the Nation's 
Capital with their aim to establish a republican form of 
government in the new United States when the citizens of the 
Federal city lacked the primary tool of democratic 
participation--representation in the national legislature.
    For many years, I've acknowledged publicly that there's an 
unacceptable contradiction between the democratic ideals on 
which this country was founded and the District's exclusion 
from true congressional representation. Let's be real, how can 
you argue with a straight face that D.C. should not have some 
direct congressional representation? For more than two 
centuries, D.C. residents have fought in 10 wars and paid 
billions of dollars in Federal taxes. They have sacrificed and 
shed blood to help bring democratic freedoms to people in 
distant lands. But here at the symbolic apex of democracy, they 
lack what is arguably the most fundamental right of all.
    For the past year and a half, my staff and I have 
undertaken an intellectual and political journey to learn more 
about the interaction between the Constitution and the 
District. As we studied the problem, the lack of direct 
congressional representation, we focused on two prime 
requirements for any plan to be found acceptable. First, it 
needed to be permissible under the Constitution. Second, it 
needed to be politically achievable in the current political 
environment.
    Today we want to discuss four legislative proposals for 
giving the District direct representation in Congress, 
including my own. All of these plans share one central 
characteristic. Instead of relying on courts to find some 
latent Constitutional authority to force representation--which, 
to date, they have firmly declined to do--instead of proposing 
a drawn-out, dead on arrival Constitutional amendment process, 
each requires Congress to take legislative action to remedy the 
situation, that's what the plans before us today do.
    One of the plans we'll hear about today requires Congress 
to treat the District as a State and grant the District full 
representation in both the House and Senate. One would allow 
the people of the District to vote with the people of the State 
of Maryland in House and Senate elections. Another gives the 
State of Maryland most of the District except for the central 
Federal core of the city.
    Each of these proposals is commendable, recognizing the 
untenable justice of the current situation. Each reflects or 
illuminates the Constitutional authority granted to Congress in 
the District Clause, and each is worthy of careful study and 
debate.
    I'm offering a fourth plan that I believe is not only 
Constitutionally viable but also politically feasible. Our plan 
is relatively simple: treat the District as a congressional 
district for the purpose of allowing the people of the District 
to elect a full, voting member of the House of Representatives. 
Second, increase political palatability, increase the size of 
the House of Representatives by 2, to 437, until 
reapportionment for the 2012 election. My plan would not affect 
the makeup of the Senate in any way, nor would it affect the 
operation of the 23rd amendment that gives the District three 
electoral votes in any way.
    This plan is a reasonable effort to give the people of the 
District fair and full representation in one House. I believe 
there is a sound basis in the Constitution that Congress has 
the power under the District Clause in Article I, Section 8, to 
provide for such representation. The District Clause itself 
confers extremely broad authority over the District on 
Congress. Congress' authority is ``exclusive'' and covers ``all 
cases, whatsoever,'' in the District.
    Article I, Section 2 that establishes the House provides 
that Members of the House are to be elected by the people of 
the several States.'' I believe this reference to the several 
States should not be construed to preclude voting by the people 
of the District, but under the authority of the District Clause 
to permit Congress to allow it should Congress decide to do so. 
After all, at the time this requirement was established, there 
was no District of Columbia, only the people of the several 
States, which included people who would become citizens of the 
District of Columbia.
    This description of the House and the people who would vote 
for House Members, when considered in conjunction with 
Congress' broad authority under the District Clause, does not 
establish that the framers intended to foreclose Congress' 
authority to permit representation in the House of all the 
people of the States that would comprise the Nation. But these 
considerations and others will be addressed more fully by the 
analysis provided for the committee by Viet Dinh.
    By increasing the size of the House by two until 
reapportionment for the 2012 election, we make this plan 
politically viable. Let's be blunt: I don't feel it's a sign of 
weakness in our system to have to consider politics as part of 
the process. To ignore politics is to ignore the primary 
motivating force of governmental life up here. Political 
considerations are neither good nor bad, they're simply there 
and have to be dealt with.
    In this situation, the current apportionment allows us to 
increase the House in a balanced fashion, as we have done 
throughout the Nation's history. By adding two seats and 
reapportioning seats in the House, it's expected the other seat 
will fall to the next State in line, which in this case would 
be Utah. It's not unreasonable to assume that a Republican 
would likely win this new seat. This is the politically neutral 
approach. This is the way to take the partisan sting out of 
doing what is right.
    And I was intrigued by Mr. Rohrabacher's attitude and 
suggestion, Ms. Norton, that when we put the bill in, we 
redistrict Utah as a part of this bill in a politically 
acceptable way. Maybe that's something we can look at as we 
move forward. These people are thinking about this. They're 
excited about this and they're trying to find a way around the 
problem. We haven't seen that up here for a long time on a 
compelling issue.
    Finally, I want to point out that this sort of bill is only 
likely to succeed during the middle years between 
reapportionment, at a time when it's impossible to determine 
accurately which States will gain and which States will lose 
after the next census, in this case, the 2010 census. We have a 
short period of maybe 3, 4 years where we can do great good by 
giving the District full representation in the House, and the 
States won't game it, saying will they win or lose by the 
District taking a 435th seat in the House away from one State 
or another.
    Who knows when this confluence of circumstances will occur 
again? Will it take decades, will it take centuries? We may 
never be able to pay so small a price to remove so large an 
injustice again. Now is the time to act. Americans set the 
standards for democracy and democratic principles for the rest 
of the world. It's our duty and honor to set a sterling 
example. Failing to permit some 550,000 hard working, 
patriotic, tax paying residents of the Nation's Capital to vote 
in Congress is so difficult to rationalize because it is, at 
its core, anti-democratic.
    Will moving forward with any of the measures before us 
today be easy? Not at all. But I have great faith in my 
colleagues and their willingness to let reason prevail. We need 
to forge consensus among Members with disparate views. Congress 
will ultimately grant voting rights to the District of 
Columbia, because it's really no more complex than this: it's 
the right thing to do.
    We welcome today, and we're pleased to hear from 
Representative Ralph Regula of Ohio and Representative Dana 
Rohrabacher. We're also honored in our next panel to have with 
us the Mayor of Washington, DC, who has restored so much of 
this city, Anthony Williams, and the Chairwoman of the Council, 
Linda Cropp, who does such an able job there.
    Finally, we're honored to have a distinguished third panel 
that I'll introduce at the appropriate time to share their 
views on the plans that have been offered. All of these 
witnesses have made significant sacrifices to join us today, 
and their presence is greatly appreciated.
    I would now recognize Ms. Norton for an opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.001
    
    [GRAPHIC] [TIFF OMITTED] T6625.002
    
    [GRAPHIC] [TIFF OMITTED] T6625.003
    
    [GRAPHIC] [TIFF OMITTED] T6625.004
    
    [GRAPHIC] [TIFF OMITTED] T6625.005
    
    [GRAPHIC] [TIFF OMITTED] T6625.006
    
    Ms. Norton. Thank you very much, Mr. Chairman.
    I begin by expressing my deep appreciation to Chairman Tom 
Davis for the attention and commitment he has given to D.C. 
voting rights since coming to Congress. In his caucus, the 
chairman has tried to achieve the return of the delegate vote 
in the committee of the whole by the majority. And now he has 
introduced his own bill for fuller voting rights in the House.
    Representative Ralph Regula, who previously served on the 
D.C. Appropriations Subcommittee, has introduced H.R. 381, a 
bill for full voting rights in the House and Senate. 
Representative Dana Rohrabacher, who served on the old D.C. 
Subcommittee, has introduced H.R. 3709 for full voting rights 
in the House and the Senate. District residents have 
consistently insisted upon equal rights in Congress since 1801, 
when the 10-year transition of land donated by Maryland and 
Virginia was completed. Congress took control of the District 
of Columbia, and by refusing to act, stripped American citizens 
living in the new capital of rights they had always enjoyed in 
common with other citizens. The denial of now more than 200 
years betrayed the intention of the Constitutional framers, who 
were careful to leave these rights in place during the 
transitional years.
    My own efforts, joined by many in the House and Senate, are 
the most recent of many attempts ever since to return to the 
original intent of the framers. The two most important of these 
attempts for the support they have received from Congress are 
the Statehood bill, the New Columbia Statehood Act of 1993, and 
the current congressional Voting Rights bill.
    In 1993, there was a historic 2 day debate on the Statehood 
bill on the House floor. And in a final vote of the full House, 
almost two-thirds of the Democrats and one Republican voted for 
the bill. However, thereafter, the District became insolvent, 
and in order to recover, turned over some State costs to the 
Federal Government, making statehood impossible for now.
    I then introduced the No Taxation Without Representation 
Act, because whether or not the city carried all State costs, 
or qualified to become a State, it contributes the second 
highest rate of taxes to support our Government, and residents 
have fought and died in every war, more than qualifying them 
for full voting rights in the House and the Senate.
    The significance of today's hearing should not be lost, 
should not be over-emphasized and should not be understated. 
None of the bills before us has anything close to the necessary 
support in Congress, and all raise a plethora of questions to 
be answered. The process we embark upon today is one of steps, 
not leaps. The Congress does not make great leaps. The 
importance of today's hearing is this: it represents the most 
important breakthrough for congressional voting rights in more 
than 30 years, because it marks the first bipartisan support 
for D.C. congressional voting rights since the Congress passed 
a voting rights amendment to give the District of Columbia a 
House and two votes in the Senate.
    Before us is not only my bill, the No Taxation Without 
Representation Act, but three other D.C. voting rights bills, 
filed by senior Republicans who all enjoy great respect in the 
House. Considering the recent partisan history of D.C. voting 
rights in the Congress, with only a Democratic bill filed for 
years, the return of bipartisanship, even with sharply 
different bills, is a major step and an indispensable predicate 
to achieving these rights. Until now, we have not had the 
consensus we have now achieved on the principle of voting 
representation itself. When Members of both parties file bills 
on the same subject, the underlying cause is substantially and 
undeniably advanced.
    Some of the bills may not be as familiar as others to the 
general public or to the press. But my constituents communicate 
regularly with me on voting rights, and therefore I am quite 
aware that all four approaches enjoy some support among D.C. 
residents. However, far greater exposure of all these 
approaches is necessary, because most residents, including most 
D.C. elected officials, have little more than surface knowledge 
of these bills, because they have had to draw their views from 
a title or quick summary of a bill and because there have been 
no hearings on these bills.
    Today's hearing is a good beginning to inform and educate 
residents and officials about what our options are. And I 
intend to hold a town meeting to facilitate even deeper 
knowledge of all four approaches.
    As immensely grateful as I am for these bills, I have not 
endorsed or co-sponsored any except my own. To do so at this 
time would be premature. None of the sponsors suggest that 
these bills are ripe, that residents are familiar with their 
contents or that they do not raise fair questions that remain 
to be answered. D.C. residents and elected officials are 
entitled to much more information that ranges from the 
Constitutional to the pragmatic. The questions that may be 
raised about the No Taxation Without Representation Act are 
better known. But here is a sample of questions about each of 
the three other bills. Is H.R. 381, the Retrocession Bill, 
which requires Maryland to agree to the return of the District, 
achievable politically or as a practical matter? Is H.R. 3709, 
which treats D.C. residents as Maryland citizens for purposes 
of representation, Constitutional in light of the 
Constitutional requirement that residents be, that members who 
represent a district be actual residents of their State?
    Does the House only bill continue to have one Democrat, one 
Republican symmetry that was the reason that it seemed 
politically viable in the first place in light of the bitter 
redistricting battles that recently emerged to reverse 
representation in several districts, using unprecedented 
redistricting by the State in the middle of the decade? To put 
it another way, in light of the Constitutional authority of the 
States alone to redistrict, without interference from the 
Congress, is there a way Constitutionally to guarantee how 
individual members of any State legislature would vote on 
redistricting, and to lock in the political neutrality that is 
the only reason a vote in the House only would be attractive?
    I think it should be said that I have the most to gain 
perhaps by winning a full House vote on my watch, a cause to 
which I have devoted many waking hours. But I recognize that my 
primary obligation is to make sure that this option is what it 
appears Constitutionally and pragmatically, and to think 
through specifically and to tell my constituents how such 
action would help D.C. residents achieve the full 
representation in the Senate they deserve. This is a task I am 
about at this very moment.
    There is almost nothing I cannot do in the House, 
particularly given my voting right in committee. The District's 
fundamental empowerment is in the Senate. These bills are not 
ripe largely because there has not been an opportunity to 
explore the many questions they raise. Thus, Chairman Davis and 
I have agreed that the best way to advance D.C. voting rights 
this year was with today's hearing to offer an opportunity to 
begin to look at them all. Not surprisingly, I know of only a 
handful of people who are even generally familiar with these 
approaches, or the political realities that dictate whether 
they are achievable. The reason of course is that this is the 
first hearing to expose and explain them all, and we are very 
grateful for this important beginning.
    We believe this hearing is not only the appropriate way to 
begin. A hearing on four separate bills for congressional 
voting rights is in and of itself an important breakthrough in 
the struggle for full representation. In opening this new and 
important chapter, I am very grateful to Chairman Davis for his 
leadership, for his bill and for this hearing. To my colleagues 
and Representatives Regula and Rohrabacher for their bills and 
for their contributions to today's hearing, and to my good 
friends from the District who will be testifying today.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Any other opening statements? Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and I will be 
brief. First, I want to thank you, Chairman Davis, for your 
sincere commitment and long efforts to try and resolve this 
very important issue. I want to just say that I fully support 
full voting rights for the people of the District of Columbia, 
and I want to especially thank Ms. Norton, who I know has 
committed all of her career to trying to resolve this very, 
very important question. I think this hearing is a very 
important step toward opening a renewed dialog and conversation 
on this issue.
    I support the proposal put forward by Ms. Norton. I think 
it's the most straightforward way for addressing this issue. I 
think it deals with the principle of full voting rights for the 
people of the District of Columbia, the most direct way 
providing voting rights in the House and the Senate. But I do 
want to commend all the others who have looked for solutions to 
this problem and this issue.
    I would note that the proposals put forward by Mr. Regula 
and Mr. Rohrabacher obviously have a direct impact on the State 
of Maryland. To my knowledge, they have not received any 
commitment or endorsement from their former colleague and now 
the Governor of Maryland, Governor Ehrlich. I would note that 
my good friend, the Mayor of the District of Columbia, and I'm 
not going to anticipate all of his testimony, but out of the 
four proposals, that is one proposal that I think, of the four, 
suggests is the least workable of the four. Maybe there's a way 
to resolve it, I don't know. But clearly, we need to ask the 
people of both Maryland and the District of Columbia which of 
these approaches they prefer as we move forward.
    But again, I want to thank everybody who is looking for a 
way to resolve this question in good faith for the efforts 
they've put forward. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Davis.
    Mr. Davis of Illinois. Thank you, Mr. Chairman. I shall 
also be brief.
    Let me just first of all commend you for holding this 
hearing. I also want to commend you and Delegate Norton for the 
tremendous amount of time, energy and effort that you have put 
forward to try and deal with an unresolved issue of 
longstanding. I have been fully in favor of voting rights for 
the residents of the District of Columbia since I was a child. 
I can remember reading history in grammar school and wondering 
why people who lived in the District of Columbia did not have 
full voting rights.
    I think I would be in total support of the proposal that 
has been put forth by Delegate Norton, because what we're 
talking about is giving people their full right to empowerment. 
They didn't make a determination about how the area was carved 
up, where they lived. That was decided a long, long time ago. 
And I think that we need to come full circle now and extend to 
them the full benefit of being a citizen of this great Nation.
    So I thank you, Mr. Chairman and yield back the balance of 
my time.
    Chairman Tom Davis. Thank you.
    Ms. Watson.
    Ms. Watson. I too want to join my colleagues in commending 
the Chairman and Ms. Norton's efforts and the efforts of other 
Members who have been on this issue for decades. I know that 
when I was in the California State Senate, the issue came 
before us, and there wasn't a whole lot of support.
    I want to state my position very clearly and very directly. 
I support full representation. Any American living in any area 
of our country needs to have representation, voting 
representation in the House and the Senate according to their 
numbers. The compromises keep the focus on voting rights. But I 
do not think that the people who live and serve in the District 
of Columbia need to be retroceded back to Maryland. No, I think 
that's wrong. And I think we can find a Constitutional way to 
do it.
    So I support only Ms. Norton's bill, unless there is some 
way to agree that we would have amendments on it. But I really 
think in today's world, as we're trying to spread democracy 
around the globe, and impose it on other people who have a 
different way of looking at government, we can only be the 
model. And I think every American citizen should be represented 
proportionately in Congress.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    If there are no other opening statements, we're going to go 
to our distinguished second panel. We have the Mayor of the 
District of Columbia and we have the Chairwoman of the City 
Council, Linda Cropp. Will you rise with me and raise your 
right hands? It's our policy to swear you in before you 
testify.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    First of all, let me just say thank you both for the job 
you're doing. You've restored a lot of respect for the city, 
Mayor Williams, over your tenure. We appreciate the job you're 
doing, and we're here today in a historic hearing and eager to 
hear what you have to say, both of you. Thank you.

STATEMENTS OF ANTHONY A. WILLIAMS, MAYOR, DISTRICT OF COLUMBIA; 
  AND LINDA W. CROPP, CHAIRWOMAN, COUNCIL OF THE DISTRICT OF 
                            COLUMBIA

    Mayor Williams. Thank you, Mr. Chairman, for your 
leadership in bringing us all together on this historic 
occasion. Certainly I want to thank our Congresswoman Norton 
for spearheading this throughout her time both here in Congress 
and throughout her entire career, let alone her citizenship of 
our city.
    Congresswoman Watson, thank you for being here and 
supporting this. You represent many of my family members out in 
L.A., and you're a great example of how out of loss can come 
something great. We all miss Congressman Dixon, but you're 
doing a great job as another friend of our city, and I thank 
you for that.
    And my long time friend, Chris Van Hollen, thank you for 
your steadfast support for our city.
    This is a unique opportunity, and Council Chair and I 
represent 570,000 disenfranchised citizens of the United 
States. As we've heard today, we're citizens in every sense of 
the word, we die for our country in war, we're active in civic 
life, and yes, we pay taxes. But this Nation denies us a full 
voice in this very body. And it's my firm conviction that our 
lack of representation should rise to the level of personal 
outrage for District citizens and all Americans who value 
equality and fairness.
    So it's with a sense of appreciation and pride that I sit 
before you today to discuss four distinct efforts to end this 
injustice. It's especially commendable that these bills have 
been introduced by both Democrats and Republicans, including 
three senior and influential members of the majority and the 
District's own non-voting Congresswoman. That they provide a 
wide spectrum of alternatives for moving toward representative 
democracy for our Nation's Capital is another indication that 
this issue is beginning to mature as a slight that demands a 
remedy. And I credit the Members of Congress who have authored 
them for their efforts to put this at the forefront of the push 
for human and democratic rights for District citizens.
    I would first like to commend Representative Regula and 
Representative Rohrabacher. Their bills offer opportunities for 
the District to achieve a full cohort of congressional 
representation. There are variations on the theme of 
retrocession, although they do have fundamental differences. 
One commonality of the bills is that the District's 
congressional representation would be calculated as if the 
District were part of the State of Maryland. This approach 
could bring full congressional representation to the District 
in an expedient fashion, but the approach requires much 
additional contemplation. Support among the people on both 
sides of the District line would need to be carefully gauged 
and assessed. Admittedly, some District citizens might support 
these proposals, since they provide one version of a solution 
to non-representation.
    However, I would be very reluctant to support any 
initiative that has a potential to fragment the District's 
political identity. The District is a unique political and 
social unit, and I've learned this both through my personal 
experience and from reading all the various histories of our 
city. It's a unique political and social unit that cannot be 
commingled with the interests of Maryland or any other State. I 
would imagine that Maryland residents and citizens would also 
be divided, very divided on this issue. As honorable as these 
intentions may be, it's my belief that these goals are not 
workable and do not provide as desirable a solution as an 
initiative that would keep the District intact.
    The bill introduced by you, Chairman Davis, would provide 
the District with one voting Member in the House of 
Representatives. Obviously this bill does not address the issue 
of Senate representation and does not provide a full solution 
to our disenfranchisement. Nevertheless, it does move the issue 
forward, and I look forward to working with the committee as it 
explores and attempts to resolve the outstanding 
Constitutional, legal, and yes, political issues connected to 
this approach.
    Congresswoman Norton's bill provides, I think, the most 
comprehensive solution to our disenfranchisement, insofar as it 
provides representation for the District in both the House and 
the Senate. Admittedly, this bill faces perhaps the steepest 
climb of the four proposals. But as I've read histories of our 
city and certainly the history of our country, the most 
ambitious options often require the most work. I'm grateful 
also to Senator Joe Lieberman who shepherded this bill through 
the Senate Governmental Affairs Committee several years ago. We 
are deeply appreciative of that.
    As I said before, each of these bills advance the cause of 
democracy in our city. We owe a debt of gratitude to the 
sponsors, as well as a commitment to continue working together. 
I encourage the Congress, as Mayor of this city, to hold other 
hearings and work toward bipartisan support wherever possible. 
This hearing is the beginning of what should be a spirited 
debate, both in this body and across the District, on what 
solution should be pursued. The bipartisan efforts here today 
are evidence that representation for the District can be a 
voting rights issue and not a partisan one.
    The United States should be a beacon around the world for 
the virtues and the inclusiveness of democracy. Our city 
represents that. I was particularly proud of being Mayor here 
today when we're having this bipartisan discussion of voting 
for the city. I was proud of our city and the way we conducted 
the funeral services for President Reagan. I got a lot of 
positive comments from people across the country.
    I was particularly proud a couple of weeks ago on Memorial 
Day weekend, when I talked to a World War II veteran, I think 
he was from Maine. He was talking about the night and day 
difference in the city over the last 25 years, and how he had 
gone into one of our neighborhoods, he was really impressed 
with the way the city was coming back. We started talking about 
the lack of representation in the city. He was shocked that 
here in Washington, DC, there was no representation for the 
citizens of this city.
    I think many Americans who value this city and have pride 
in this city would also be shocked at this denial of 
representation in, as you said, Mr. Chairman, the apex of 
democracy in the world. I applaud this committee for addressing 
this issue, and I look forward to working with you as Mayor of 
this city to advance this great cause. Thank you.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.015
    
    [GRAPHIC] [TIFF OMITTED] T6625.016
    
    [GRAPHIC] [TIFF OMITTED] T6625.017
    
    Chairman Tom Davis. Thank you.
    Let me just also say, it's important to note that under 
your leadership and Chairwoman Cropp's and the Council, I know 
you all don't agree on everything, but you can see this city 
coming back. And you have created a political atmosphere up 
here where we can have an honest discussion about these issues, 
where the city's reputation is now enhanced up here because of 
the way things are going. We appreciate that and hope that 
these discussions over the next couple of years will be 
fruitful and we can be productive in bringing you some voting 
rights.
    Chairman Cropp, thanks for being with us.
    Ms. Cropp. Thank you very much, Chairman Davis and our 
Congresswoman Eleanor Holmes Norton and Congresswoman Watson 
and Mr. Van Hollen. It's a pleasure to be here with each and 
every one of you. Let me thank you, Mr. Chairman, for holding 
this very important public hearing on the provisions of voting 
representation in Congress for American citizens who live in 
the District of Columbia.
    The good is that this hearing is being held today. The bad 
is that in 2004, over 570,000 citizens in the District of 
Columbia who pay $3 billion in Federal taxes are denied voting 
representation in Congress. The Council and the citizens of the 
District of Columbia very much appreciate this opportunity to 
urge you and your colleagues to use your power to bring to the 
Nation's Capital the same democracy the United States demands 
of foreign governments. If democracy is good for foreign 
countries, is it not also good for the District of Columbia and 
our citizens?
    There is nothing in the Constitution that precludes 
granting the citizens of the District of Columbia voting 
representation. Article I Section 8 of the Constitution only 
provides for Congress' authority over the District as a Federal 
territory. That clause does not deny the citizens of the 
Federal territory voting representation.
    Throughout the world, other capitals model themselves after 
the United States, except for one important matter. They 
recognize the flaw in the United States model, that of 
disenfranchisement of a large segment of their population. They 
know the importance of granting the citizens of their Federal 
enclaves voting representation.
    The right to representation for the citizens of the 
District of Columbia, it continues to be unconscionable to 
citizens that they are denied the basic rights held by every 
other citizen of the United States, that is the Constitutional 
right to be represented, to have a voice, to have a vote in the 
Congress of the United States. The denial of this basic right 
to citizens who pay the second highest per capita Federal 
income tax in this country, and who have lost more residents in 
wars protecting the Nation than 20 other States, is unjust and 
should be rectified by Congress.
    Article I Section 8 gives Congress exclusive jurisdiction 
over the District of Columbia. We believe that this same broad 
jurisdiction provides Congress with the Constitutional 
authority to enact a bill to provide congressional voting 
rights to the District's citizens. The Congress and the 
Constitution treat the District as a State for numerous 
purposes; for example, housing, transportation, education. Why 
not for the most precious and fundamental right in a free and 
democratic society, the right to voting representation?
    The Supreme Court, while sympathetic, has essentially 
stated that it is Congress that has authority to remedy this 
problem. The Council is committed to achieving full voting 
representation for its citizens. The Council urges Congress to 
pass H.R. 1285, No Taxation Without Representation Act of 2003, 
introduced by Congresswoman Norton, the District's non-voting 
delegate to Congress, and the Senate companion bill, S. 617, 
introduced by Senator Joe Lieberman, which will grant the 
District's citizens voting representation in the House and the 
Senate.
    On behalf of the Council and the citizens of the District 
of Columbia, I would like to thank these two Members of 
Congress for introducing legislation that would finally give 
District residents the right of representation that all other 
citizens of the United States have been granted. I have 
attached to my testimony the Council resolution adopted in 2002 
supporting these two bills.
    The Council's objective is to achieve full voting 
representation for the citizens of the District. We recognize, 
however, that there may be several ways to achieve this 
objective. Full voting representation may be achieved in 
incremental steps, such as obtaining representation in one or 
two chambers first, then the other at a later time. We would 
prefer it all to come at once.
    The Council has recently adopted a resolution supporting 
such an interim step. I have attached to my testimony the 
Council's resolution adopted June 1, 2004, supporting the 
incremental approach to achieve full voting representation, R. 
15-565.
    I want to thank you, Mr. Chairman, for the legislation that 
you have proposed that would grant full voting representation 
in the House, and your comments in support of the Council's 
resolution. Full voting rights representation in the House 
would provide an interim first step in allowing the citizens of 
the District of Columbia to have a voice in their Federal 
Government. Votes taken on the House floor ultimately impact 
the legislation in the Senate, and those will become law.
    The Council looks forward to working with you and toward 
the obtainment of representation in Congress. Again, let me be 
clear. While the Council is willing to consider an interim 
step, our objective remains to obtain full voting 
representation for the citizens of the District of Columbia. We 
believe that this is a right too long denied.
    The Council greatly appreciates the interest of other 
Members of the Congress who have introduced or proposed 
legislation that would provide some form of representation for 
our citizens. It's reassuring to know that congressional 
Members of both parties understand the importance of and the 
need to correct this longstanding injustice.
    Representative Regula, I want to thank him for his interest 
and efforts on this very important issue for the citizens. His 
proposal would cede the District back to the State of Maryland. 
While recognizing the origins of the land creating the District 
of Columbia, I believe that the reunification of the two 
jurisdictions would present many difficulties. The District has 
been separated from Maryland since the early 1800's. Since that 
time, institutions of government, business and residential 
citizenship have been developed.
    Also, cessation back into the State of Maryland would 
require redistricting that would ultimately change the 
political boundaries known today as the District of Columbia 
and the separate counties of Maryland. Representative 
Rohrabacher has introduced the District of Columbia Voting 
Rights Act. I want to thank Representative Rohrabacher for his 
understanding of this important issue and his efforts in 
drafting the legislation. Again, while supporting that and 
thanking him for introducing that, we think that there is 
another approach that would be better for the citizens of the 
District of Columbia, and certainly the proposal is extremely 
well intended.
    In order to determine the number of representatives from 
the State of Maryland whose proposal would incorporate the 
population of the District with the population of Maryland, the 
apportionment of representatives and creation of more 
congressional districts would initially be sort of hard 
pressed. However, I would like to thank him for his interest in 
that.
    We were joined earlier by young children who had come into 
the chamber, and they had tee-shirts on, the Young D.C. 
Suffragettes.
    Chairman Tom Davis. We start them early here in D.C. 
[Laughter.]
    Ms. Cropp. That's right, we start them early and often. We 
have to because of the injustice here. But as I look at them, I 
can only think that they represent thousands of other children 
in the District of Columbia. And quite frankly, I think they 
really represent, Mr. Chairman, children in Virginia, Ms. 
Watson's children in California, Mr. Van Hollen's children in 
Maryland, children who we are sending mixed messages to.
    What we are saying to these children is, do as I say, but 
not as I do. Because we say that we want democracy. We say that 
we are sending our citizens around the world to fight for 
democracy. We say to our children that the right to vote is 
important. We say to our children that this country was founded 
on the fundamental principle of no taxation without 
representation. We say to our children that democracy is 
important for every citizen in this country. But we do 
something different.
    We do to the District of Columbia and its citizens an 
injustice, only because you have the power to do it. This 
hearing, Mr. Chairman, is about changing that injustice. We 
plead to the rest of the congressional representatives to teach 
our children in this country a very valuable lesson, that we 
mean what we say and we do it. The power is in your hands.
    Thank you for this opportunity.
    [The prepared statement of Ms. Cropp follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.018
    
    [GRAPHIC] [TIFF OMITTED] T6625.019
    
    [GRAPHIC] [TIFF OMITTED] T6625.020
    
    [GRAPHIC] [TIFF OMITTED] T6625.021
    
    [GRAPHIC] [TIFF OMITTED] T6625.022
    
    [GRAPHIC] [TIFF OMITTED] T6625.023
    
    [GRAPHIC] [TIFF OMITTED] T6625.024
    
    [GRAPHIC] [TIFF OMITTED] T6625.025
    
    [GRAPHIC] [TIFF OMITTED] T6625.026
    
    [GRAPHIC] [TIFF OMITTED] T6625.027
    
    [GRAPHIC] [TIFF OMITTED] T6625.028
    
    [GRAPHIC] [TIFF OMITTED] T6625.029
    
    [GRAPHIC] [TIFF OMITTED] T6625.030
    
    Chairman Tom Davis. Thank you very much, Chairman Cropp.
    We've been joined by Representative Cannon from Utah. 
Chris, thanks for joining us. Congratulations on your victory 
yesterday.
    Mr. Cannon. Thank you, Mr. Chairman. I apologize, but I 
have a hearing where I am presenting a bill before the 
Corrections Committee in just a few minutes. Could I submit an 
opening statement for the record?
    Chairman Tom Davis. Without objection, that will be put in.
    [The prepared statement of Hon. Chris Cannon follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.031
    
    [GRAPHIC] [TIFF OMITTED] T6625.032
    
    [GRAPHIC] [TIFF OMITTED] T6625.033
    
    Mr. Cannon. Thank you very much. I appreciate you holding 
this hearing and your leadership on the issue. It's a very 
significant issue for our committee and for the District of 
Columbia and also for Utah. We appreciate that, and I yield 
back.
    Chairman Tom Davis. Thank you very much.
    Let me start. Mayor Williams, Ms. Norton is obviously a 
very effective representative in this city, even without a 
vote. I can tell you that, being here with her on the committee 
and everything else. But you have no representation in the 
Senate, you have no vote on the House floor. And as you look 
around the country and deal with other mayors and other areas, 
the city is disadvantaged to that extent, wouldn't you say?
    Mayor Williams. It clearly is. Just one example is in the 
health care area. Medicaid is a big, big part of our budget. 
Health care is a big, big part of our budget. The District 
right now is really, I think, disadvantaged because the 
Medicaid formula is based on income as opposed to based on the 
incidence of property in your jurisdiction. We have the highest 
concentration of poverty in the United States, but we don't 
have a voice in the Congress in trying to reshape that formula 
and reshape that fundamental Federal approach to health policy.
    This is one example of many. Transportation would be 
another one.
    Chairman Tom Davis. And in the case of Medicaid, 
everybody's admitted they made a mistake in the formulas.
    Mayor Williams. Right.
    Chairman Tom Davis. And haven't been able to find it, and 
we've all stood on our heads. I appreciate it, I think that's 
important to note.
    Some who favor statehood for D.C., two Senators as well as 
a House Member, say they can't support a proposal that provides 
just the House, that they don't want half a loaf, that they 
believe it ought to be everything or nothing. And yet, as you 
look at the history of voting rights in the city, it has been 
incremental. It started with Presidential voting in 1960, it 
went to home rule, limited home rule, the first appointed 
council.
    How do you talk to those people and what do you say to 
those people? I'd just try to say it's been a gradual, 
incremental approach through time and we're heading in the 
right direction. But what do you hear in the city on these 
issues?
    Mayor Williams. I go by the saying, there's an old saying, 
to plan is human, to implement is divine. It's easy to have a 
broad, grand plan, and I share that plan. I believe that it is 
a fundamental injustice that we don't have full representation 
in the Congress.
    But we're still looking, in the civil rights era, we're 
still looking for full economic empowerment, we're still 
looking to vindicate civil rights for all Americans. In other 
words, a step by step approach to civil rights. We're still 
looking for full vindication of voting rights here in the 
Congress. It's going to take a step by step approach here. I 
support legislative autonomy, budget autonomy, a number of 
measures, voting for a Congresswoman, a number of measures that 
are not fully satisfactory or sufficient in themselves, but are 
necessary milestones in getting us to our full destination.
    So I reluctantly but at the same time aggressively support 
a step by step approach, if that gets us to our destination.
    Ms. Cropp. Mr. Chairman, if I could just add. Make no 
mistake, there is no doubt that we would like to have it all. 
Full voting representation in the Senate and the House, we want 
it all.
    The reality is, right now we probably won't get it all. Our 
people in the District of Columbia are starving. They are 
starving for democracy. We have an opportunity to get some 
vegetables and bread while we're starving, and we haven't had 
anything to eat in decades. But we have an opportunity to get 
vegetables and some bread.
    We want that for our citizens to keep them alive so that 
they can keep fighting to get the meat added to their dinner 
plate. That's the essence of it. We need to move forward so 
that we can stay alive to fight the continued battle for full 
democracy.
    Chairman Tom Davis. Thank you very much. I was going to 
say, my plan at least gives you a ``stake'' in the outcome, but 
I saw--[laughter]--you mentioned, could you lay out more 
specifically what concerns you have about the city going into 
Maryland and becoming--what problems does this present if the 
city were to ever become a part of Maryland and be a full 
functioning city? Because that's one of the proposals.
    Ms. Cropp. I think there are several problems on different 
front. The District of Columbia for so long has now developed 
its own identity. The State of Maryland also has its own 
identity. And that is the basic problem that would happen with 
that.
    In addition to that, I don't think Maryland would 
necessarily open its arms up to embrace the District, because 
it certainly would change their political landscape 
tremendously. So many people have talked about politics being a 
reality, and that's a very real issue for Maryland, that their 
political landscape would change.
    But beyond that, the District has its own identity and 
culture, and we believe that we should have our own 
representatives.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. I certainly want to thank both Mayor Williams 
and the Chair of our Council, Chairwoman Cropp, for what was 
really very thoughtful testimony. I appreciate your support of 
my bill and your support of the flexibility I have to have to 
operate in the House of Representatives. Very tempting, if you 
all know Eleanor Holmes Norton, I've been here for 14 years, to 
say, wow, I got a House vote. But of course, the people of the 
District of Columbia expect me to read between the lines, and 
that is what I've been doing and will continue to do.
    The flexibility I speak of is perhaps heralded by the way 
Chairman Davis himself has operated on his bill. I have worked 
with Chairman Davis every step of the way and I'm going to 
continue to do so. His initial bill, which I have to tell you, 
District residents in large numbers put their hands up and 
said, we're for commingled District residents with Maryland 
residents. But based on the fact that it was a House vote, 
District residents may just say, I'm for that, because that 
gets us there. That is not the way to operate in the House of 
Representatives. Both of you have testified for example that 
you would not like to see that kind of commingling.
    Now, the chairman was only operating from step one. He was 
still looking at his bill. I didn't jump up and say, oh, my 
goodness, we couldn't possibly support that. We are in no 
position to support anything. We need to work with one another 
just as I am continuing to work with the chairman.
    And just as by working with him, his initial bill was 
changed substantially. It wasn't changed substantially because 
of anything I did, although we ourselves did our own study. The 
chairman was continuing to work on the bill himself, and didn't 
put a bill in until just yesterday. And as with all 
legislation, he is of course still working on that bill. 
There's a lot of homework we're still doing. I want to assure 
everybody I'm doing homework on all these bills.
    For example, there's a lot of homework to be done in Utah. 
All we know about Utah is that Utah is for another vote. 
Wouldn't you be for one? So everybody, the Democrat and the 
Republican from Utah says yes, we're for another vote and we're 
certainly glad if you get us another vote.
    But the chairman has not had any opportunity to do any 
homework in Utah. He's been working on his bill. So nobody 
knows what the mechanics of Utah are, assuming that's what 
we're talking about. I raise these issues, not because I 
believe that this bill is not the way to proceed. On the 
contrary, everything I do up here is incremental.
    I have a bill that I am co-sponsor with the chairman for 
budget autonomy that we hope to get out this very year which is 
not full budget autonomy. But it very substantially moves us 
away from where we are today and toward full budget autonomy. 
So I want to be clear that I do not oppose incremental 
approaches. But I have to have the flexibility to do what I do 
up here every day, and that is to negotiate the best deal for 
the District of Columbia. And that is what I am going to do.
    I am going to work with each and every one of these 
Members, including Members who have bills that I perhaps could 
not support ever. I'm going to certainly continue to work with 
Chairman Davis, who has always been open to changes. And I know 
the way the House operates. If you continue to work with 
Members who agree with you on the basic principle, you can 
ultimately get a bill that will be acceptable to everybody.
    We can't do this by leaps and bounds, and we can't do it 
without knowing what is out there. And so I want everyone to 
understand my position, which is certainly not one of opposing 
approaches that edge up to voting rights. I do mean what I say 
about the Senate. Because it is very hard for me to think of 
anything I can't do in the House except cast a vote on the 
House floor. That is a total insult to my constituents, a total 
and complete insult to my constituents.
    Would that the votes were not already determined by the 
time you get to the House floor. For most Democrats, a vote on 
the House floor is a mere--well, we do not have a majority, for 
example. It doesn't determine anything. So one of the things 
that I am in the process of doing right now is not, it's 
working on what many residents want to hear, and that this is a 
way station. What in the hell is that? They want to make sure 
it's not a permanent station. They want to know, Eleanor Holmes 
Norton, Linda Cropp, Tony Williams, specifically tell us how 
you would make, you would use this opportunity to in fact 
achieve full voting rights.
    I believe that this is a question that can be answered, and 
I want to invite members of the D.C. City Council, our Mayor to 
work with me so that we can put this approach on the table, 
assuming we can work out the considerable political 
difficulties raised in Utah and even in this Congress, so that 
we can ask the questions that are already beginning to be 
asked, and answer the questions that are already beginning to 
be asked by residents.
    In the meantime, I continue to, I am going to continue to 
work with Chairman Davis specifically on his bill and to 
encourage him on his approach and to see if we can perfect that 
approach, along with the bill that I myself have introduced. I 
thank you both for your work, because your work in the city has 
been very important in opening the atmosphere here for 
Republicans and Democrats to want to consider congressional 
voting rights.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Ms. Watson.
    Ms. Watson. Again, I want to thank the Chair. This debate, 
discussion and these bills are long overdue. It is my strong 
feeling that the debate should have happened back when people 
got full citizenship by being born in this country. 
Disenfranchisement of any group cannot be justified, unless 
there has been a crime committed and they lose their rights. I 
don't feel that the people of the District of Columbia are full 
citizens because they are victimized by the location in which 
they choose to live.
    There is a fundamental issue here that should be debated. 
What are the rights of American citizens? I mean, that's the 
only thing. I don't think an area needs to be ceded back to 
another area to give you as an American citizen the right to 
vote. If so, you shouldn't have to pay taxes here.
    So I mean, we're discussing something very fundamental 
here. And to me, it's really simple and it's clear. I'm an 
ambassador, former Ambassador, and I had to go around and 
represent the United States in countries that didn't even 
understand our language or understand our Government. They 
certainly didn't understand what happened in November 2000. I 
had to tell them that no, that's not the way we operate.
    So how do you go out as someone representing the United 
States and say, a Democratic process guarantees you certain 
rights. But should you live in a certain location, you are 
disenfranchised. What kind of sense does that make, if it 
addresses the value and the principles of democracy? There is 
no justification. And I'm different from your representative, 
because I think that her way is the only way. I don't think 
there should be a compromise and I don't think it should be 
sequential. I don't think you need half a loaf. I thought we 
had debated that decades ago.
    But by birthright, you should not be penalized by the site 
upon which you chose to live. If you're in the continental 
United States, until your rights are taken away from you 
because you broke the law, you should have full rights. So my 
question to the panel, do you feel that there is a penalty 
placed on you because you chose to live in the cradle of 
democracy, our Capital?
    Ms. Cropp. There's no doubt that there is a very severe 
penalty placed on us. Ironically, someone who lives in one 
other State can just decide to move the very next day. And they 
lose what rights and privileges they had.
    You know, you're supposed to be able to move about this 
country and have certain basic rights as you move. Isn't it 
ironic that someone could move from California and in 1 day, 1 
hour, 3 hour trip, 4 hour trip and all of a sudden they lose 
their rights and privileges of having voting representation in 
the Congress of the United States? There's something wrong with 
that.
    Mayor Williams. I think there clearly is a penalty by 
virtue of where our citizens choose to live. It puts the city 
and it certainly puts our leadership in a very untenable 
position, it's a difficult position. And from the very origins 
of our city, 200 or so years ago, there was a Mayor and a 
Council, they would all talk about voting rights for the city. 
And at that time the Congress would threaten to just pull the 
Federal Government out of town. They would tell them, instead 
of talking about voting rights, why don't you build roads, then 
it wasn't paving roads, it was like, take the trees off the 
roads, light the streets, take care of basic business, instead 
of sitting here complaining about voting rights.
    This is not a new issue. This has been going on for decades 
and decades and decades. And it's still not right. It still 
hasn't been fixed.
    Ms. Waters. If I may just finish, Mr. Chairman, I just want 
to say I watch every day your representative, Ms. Norton, 
involve herself in all issues of the committee's province. And 
we all rush to the floor to vote on budgetary items and so on, 
and has no voice for you. There is something fundamentally 
wrong with that.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen wants to make a statement before he leaves. 
Thanks for being here.
    Mr. Van Hollen. Thank you very much, Mr. Chairman. Thank 
you, Mayor Williams, Chairman Cropp, for your testimony. And as 
I understand both of your testimony, out of the four proposals 
that are before us now, the two that involve Maryland, as I 
understand, in your opinion are probably the most complicated, 
the most difficult to enact and at least at this point in time, 
the least desirable, although obviously they involve a 
conversation with the people of the District of Columbia and 
Maryland. Is that my understanding of your positions?
    Ms. Cropp. That's correct.
    Mr. Van Hollen. OK. That leaves of course the proposal of 
Chairman Davis and of course the legislation of Congresswoman 
Norton. As I said, I strongly support the legislation put 
forward by Congresswoman Norton, but I also understand that 
when you're trying to achieve a goal, sometimes you have to 
take steps along the way.
    So I look forward to working with Congresswoman Norton and 
Chairman Davis, I think, as his proposal has also been put 
forth in good faith. I want to work with her and all of you and 
the people of the District of Columbia to see whether we can't 
move forward on this. I would very much like to see us get to 
the end game of a full voting rights, as expressed in 
Congresswoman Norton's proposal right away. But I look forward 
to working with her and all of you to see if there isn't some 
proposal that moves us in the direction just on the way to full 
voting rights.
    I don't know whether that's possible. But I just want to 
say to both the chairman and Ms. Norton, I look forward to 
working with you to try and accomplish that.
    Chairman Tom Davis. Thank you very much, Mr. Van Hollen.
    Mr. Shays.
    Ms. Shays. Thank you. First I want to say that when I was 
elected, shortly after a member named Tom Davis came to 
Congress, I wasn't quite sure whether he represented 
Washington, DC, or northern Virginia. [Laughter.]
    Because he took such a great interest in Washington, DC, I 
was very proud----
    Chairman Tom Davis. That doesn't help me in northern 
Virginia, I just wanted to let you know that. [Laughter.]
    Mr. Shays. I was very proud that he did that, and I was 
very proud he did it as a Republican. And I'm very proud of him 
now for bringing this legislation forward. I would respond to 
Ms. Watson's comment, because I agree with part of it, but I 
don't agree with all of it. I think it is absolutely clear that 
representation in the House of Representatives needs to happen. 
And the best way it can happen, we should do it. I wrestle with 
the whole issue of Senatorial, whether a city-State of a half a 
million plus people should have two Senators.
    And we can get into an impassioned speech about that, but 
the absurdity is looking at a place like California. I know 
California has two representatives, but I don't think it's easy 
for someone to have access to those two Senators from 
California. A little easier if you come from a State like 
Delaware, or Connecticut. So we do have that distortion, and 
that's what it is.
    My own view, it seems so clear to me, Virginia basically 
took part of the 10 mile square and I think it's so logical 
that the erst of Washington should be part of Maryland. But 
that's not going to happen, for political reasons it's not 
going to happen.
    So I just want to applaud both of you for what I think your 
testimony is. You may agree ultimately that you need two 
Senators and a representative. But you have an extraordinary 
representative, Ms. Norton, who doesn't have the legal rights 
that I have. Just think what you could do when she has that 
capability, to be able to stand on the floor to vote on any 
issue.
    And to move the ball forward, to me, is absolutely 
essential. And I would hope that Republicans and Democrats 
alike would want to do that. Otherwise, I think we could be 
debating this 50 years from now. Because the political reality 
is, it didn't happen under a Democratic President, it didn't 
happen under a Republican President, it didn't happen under a 
Democratic Congress, it didn't happen under a Republican 
Congress. It's going to take both parties to get together and 
find a solution.
    And it's going to have to be a compromise. I'd like to know 
if I've said anything that you find particularly objectionable 
in what I've said, to either one of you.
    Mayor Williams. First of all, Congressman, thank you for 
your support for voting rights in the House and the general 
notion of representative democracy.
    I would just say, and I'm not expert, but it just seems 
that States were recognized in the Union and given Senate 
representation on the basis of fundamental principles of 
democracy, yes, with consideration of politics, yes, but also 
with due regard to their history and their culture and their 
tradition. And Washington, whether we like it or not, has now 
over 200 years developed a distinct culture and experience and 
history that should be recognized. It isn't just a matter of, 
with deep, deep respect, in my mind it isn't just a matter of 
politics.
    Ms. Cropp. I want to thank you for your support and your 
understanding of receiving congressional representation. I'd 
like to talk to you later on about Senate representation. And I 
understand the differences.
    But when you look at the District of Columbia and look at 
our population and you compare it with several other States, 
and we are a city-State at this point, but when you compare it 
with several other States who also have Senate representation, 
you look at our population, you look at our income, I think 
that we still, we too should have that type of Senate 
representation.
    When the country was developed, it wasn't the House for the 
population component of it, and my telling you about this is 
like telling Noah about a flood. You know it all much better 
than I. But the Senate was just to make sure that a State had, 
each State had some type of equal representation, regardless of 
size or population. So I would think that the District of 
Columbia would also fall under that.
    Mr. Shays. OK, but I would just say, and obviously Maryland 
has to be a willing player in this. But in the end, you solve 
the problem. There can be no argument that people in D.C. would 
not have a voice in the Senate if they get to choose a Senator 
in the State of Maryland. And that's a fact. That's a fact. 
They would get to vote.
    And so the argument that Ms. Watson makes to me is 
answered.
    Ms. Cropp. Yes, but I'm not talking about the District 
going to Maryland. I'm saying our own separate Senate.
    Mr. Shays. I understand that. I'm talking about it going to 
Maryland. But my point is, we do resolve the issue that Ms. 
Watson raises. You would be able to vote for both. But in the 
end, I guess I would just conclude, because my light is red 
here, seize this opportunity, seize it as a precious, precious 
opportunity. Don't let it get away.
    Ms. Cropp. It's our first step, and we extend our hands and 
join with Members of Congress to please make this a reality.
    Chairman Tom Davis. Thank you very much.
    I'm going to dismiss the panel, we have another panel to 
come in. I know you have other things to do. Thank you very 
much for being here. The committee will take a 2-minute recess 
as we move to the next panel.
    [Recess.]
    Chairman Tom Davis. We will hold the record open, I know we 
couldn't get every interested group who had comments before the 
committee today to testify, but we will take testimony for the 
record and submit into the record statements from other groups. 
I think we'll leave the record open for 10 days if they want to 
submit them to the committee and make them part of this.
    We now move to our third panel. It is a very distinguished 
panel indeed. We have Wade Henderson, esq., executive director 
of the Leadership Conference on Civil Rights. We have the 
Honorable Kenneth W. Starr, who's a former solicitor general of 
the United States, former Judge, U.S. Court of Appeals for the 
District of Columbia Circuit, a partner in Kirkland and Ellis, 
and soon to be dean of the Pepperdine University School of Law. 
Congratulations, Judge Starr.
    We have Ilir Zherka, the executive director of D.C. Vote. 
We have Walter Smith, the executive director of the D.C. 
Appleseed Center for Law and Justice. We have Betsy W. 
Werronen, who is the chairwoman of the D.C. Republican 
Committee, and Ted Trabue, who's here on behalf of the Greater 
Washington Board of Trade.
    Since we're the major investigatory committee in Congress, 
we swear everybody in. So if you'd rise with me and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. We're going to start, Mr. 
Henderson, with you, and we'll move on down the line. We have a 
button in front of you, it will turn, it will be green for 4 
minutes, it will be orange for 1 and then red. Your entire 
statements are without objection put into the record, so the 
entire statement is in the record. To the extent you can stay 
within that 5 minutes, it helps us in bringing the issues and 
we can move to questions.
    You are a very important part of this, we appreciate your 
being here. We had opportunities to hear from literally dozens 
of groups and selected you to appear here before us today to 
answer questions. So we will start with you and move straight 
on down. Thank you all very much.

    STATEMENTS OF WADE HENDERSON, ESQ., EXECUTIVE DIRECTOR, 
LEADERSHIP CONFERENCE ON CIVIL RIGHTS; KENNETH W. STARR, FORMER 
  SOLICITOR GENERAL OF THE UNITED STATES; FORMER JUDGE, U.S. 
  COURT OF APPEALS FOR THE DISTRICT OF COLUMBIA CIRCUIT; ILIR 
ZHERKA, EXECUTIVE DIRECTOR, D.C. VOTE; WALTER SMITH, EXECUTIVE 
  DIRECTOR, D.C. APPLESEED CENTER FOR LAW AND JUSTICE, INC.; 
    BETSY W. WERRONEN, CHAIRWOMAN, THE DISTRICT OF COLUMBIA 
 REPUBLICAN COMMITTEE; AND TED TRABUE, REGIONAL VICE PRESIDENT 
  FOR DISTRICT OF COLUMBIA AFFAIRS, PEPCO; GREATER WASHINGTON 
                         BOARD OF TRADE

    Mr. Henderson. Thank you, Mr. Chairman. And thank you to 
the members of the committee for the opportunity to testify on 
voting representation in Congress for the citizens of the 
District of Columbia.
    My name is Wade Henderson, and I am the executive director 
of the Leadership Conference on Civil Rights. The Leadership 
Conference is the Nation's oldest, largest and most diverse 
coalition of civil and human rights organizations. We strongly 
support efforts to give citizens of the District of Columbia 
full voting representation in the U.S. Congress. And indeed, 
voting rights for D.C. citizens is one of the compelling human 
and civil rights issues of our time.
    Now, at the outset of this hearing, I want to commend you, 
Mr. Chairman, for your leadership on this important issue, 
which has earned you well deserved respect on both sides of the 
political aisle and all sides of the District line. I also want 
to thank Delegate Norton for her longstanding and tireless 
effort to promote equal rights for the residents of the 
District of Columbia.
    The fact that there are now four house bills on the subject 
is a significant and important development toward closing a 
gaping hole in the fabric of American democracy. That the bills 
have been introduced by Republicans and Democrats is a hopeful 
sign of the return of bipartisanship that has characterized the 
passage of every major civil rights law, including the 1978 
amendment that would have given the District full 
representation in both houses if it had been ratified by the 
States.
    This hearing and the debate about these bills could not be 
more timely. Citizen soldiers from every State and the District 
of Columbia are fighting and dying in Afghanistan and Iraq. All 
of them except for soldiers of the District of Columbia were 
represented when Congress decided their fate in 2002, and when 
Congress decided how much to spend on training, weapons, safety 
equipment and medical systems, on which their lives would later 
depend, deciding in effect how much their lives were worth in 
political terms.
    We are only days away from transferring sovereignty to an 
interim Iraqi government, which will be responsible for holding 
free elections by early next year. If and when those elections 
come, and Iraqis are given a chance to elect their own leaders, 
they will enjoy a right denied to hundreds of thousands of U.S. 
citizens. The leadership conference strongly believes that 
remedying the lack of voting rights for the District is the 
responsibility of Congress and within Congress' legislative 
power under Article I, Section 8 of the Constitution. The 
Federal Appellate Court's decision in Alexander v. Daley, 
upheld by the Supreme Court in 2001, agreed that it was unjust 
to deny District residents congressional representation, and 
made clear that the legislation by Congress was the appropriate 
remedy.
    It is deeply gratifying that we are here today to discuss 
how to provide voting rights to the District, rather than 
whether to provide them. Now, initially, I want to turn to H.R. 
1285, Delegate Norton's No Taxation Without Representation Act 
of 2003. The leadership conference has consistently supported 
this bill and its predecessors as introduced in the House by 
Delegate Norton and in the Senate by Senator Joe Lieberman.
    Of the bills discussed today, the Norton bill is the 
simplest, fastest and most direct route to providing full 
voting representation in Congress for residents of the District 
of Columbia. We believe that it avoids many of the 
Constitutional problems that we will discuss subsequently, so I 
want to reiterate endorsement of H.R. 1285.
    Now, turning to the specific legislation that is before us 
today as well, let me first address your bill, Mr. Chairman, 
the District of Columbia Fairness in Representation Act [D.C. 
FAIR Act]. Without question, the legislation would effect a 
positive change for the residents of the District by giving 
them some congressional representation. As such, it would be an 
improvement over the status quo. And we commend the chairman 
for introducing it.
    D.C. FAIR's approach to creating voting rights for District 
residents is particularly creative. By simultaneously creating 
a second, temporary congressional district, widely expected to 
go to Utah, the legislation would likely have no immediate 
effect on the congressional balance of power between Republican 
and Democratic parties. One would hope that this would disarm 
those who shamelessly oppose voting rights for District 
citizens for purely partisan political reasons. Now, while we 
appreciate that the bill is intended to further the cause of 
voting rights by providing the District with a voting Member of 
the House of Representatives, we must be clear that it would 
not provide and equal rights for the residents of the District, 
because it doesn't include Senate representation.
    We understand the chairman's intent that the bill serve as 
a politically practical first step toward voting rights for the 
District, however, we fear that others might use such a 
compromise to short circuit efforts to provide full voting 
representation. Congressman Rohrabacher's District of Columbia 
Voting Rights Restoration Act would give District residents the 
right to vote in Federal elections as citizens of Maryland. It 
is another creative approach to the problem, and worthy of 
serious consideration.
    Of particular importance, the bill's finding of fact, 
laying out a case for congressional authority to provide voting 
representation for District residents, is an important addition 
for any statute on this subject. And we also encourage that the 
bill would give District residents representation in both 
Houses. Now, perhaps intended as a political tradeoff, the bill 
would go beyond congressional elections and treat District 
residents as citizens of Maryland for the purpose of 
Presidential elections. While we agree that Congress has full 
legislative authority to grant congressional representation to 
the District, we do not agree that it has the power to 
terminate the District's electoral votes.
    The plain language of the 23rd amendment grants electoral 
college participation to the District and specifically empowers 
Congress to enforce that grant, not terminate it. 
Representative Regula's bill, the District of Columbia-Maryland 
Reunion Act, is perhaps the most drastic of the four proposals, 
but also the only one with a clear statutory precedent. As the 
committee is aware, the area west of the Potomac ceded to the 
Federal Government by Commonwealth of Virginia was returned to 
Virginia in 1846. The leadership conference agrees with the 
premise of H.R. 381, that defining a national capital service 
area that would be retained by the Federal Government as the 
District of Columbia, all Constitutional requirements for the 
District would be satisfied, leaving Congress free to return 
the remainder of Washington to the State of Maryland.
    Unfortunately, there is no indication at this time that the 
State of Maryland or its citizens would accept the return of 
the District, not that I would propose it, as a District 
resident. But without question, the political and economic 
consequences of retrocession would be dramatic and far-reaching 
for the city of Washington, the State of Maryland and all the 
residents of both. We submit that H.R. 381 is premature. Before 
it is given serious consideration in Congress, funds should be 
appropriated for an in-depth study of the economic and 
political consequences of retrocession, including a survey of 
the residents of both Maryland and the District, to determine 
whether there is any support for retrocession in the city or 
the State.
    We are also concerned about the unintended consequences of 
all three bills. Implementation of new congressional districts 
would require redrawing of congressional boundaries in Utah 
and/or Maryland. Now, we have already seen the political and 
legal chaos created by partisan-inspired, mid-decade 
redistricting schemes in Texas and Colorado. We believe that 
the Texas plan is both unConstitutional and anti-democratic, 
and I'm deeply troubled by its potential effect on the voting 
rights of racial and ethnic minorities.
    While clearly not intended to do so, a Federal statute 
requiring redistricting, even to add a temporary House seat, 
would set a dangerous precedent that would surely be used as 
political and legal fodder in future mid-decade redistricting. 
While it would not be our first choice, if in Congress' 
judgment there is no other way to pass a bill creating voting 
representation for the District, we would recommend including 
protections against politically motivated redistricting sought 
by either political party. Congress could accomplish this goal 
by specifically defining the new congressional district 
boundaries and legislation creating the District, and by 
prohibiting any mid-decade redistricting of congressional 
seats, other than the initial post-census redistricting, unless 
specifically authorized by Federal statute.
    Absent this protection, we see no real way of going forward 
in a significant way. I see my time has expired. I apologize 
for going over. We think this is an important step. We commend 
you again for taking the initiative to address these issues. 
Thank you for introducing your bill, and I think we've made 
clearly the positions of the leadership conference on all four.
    [The prepared statement of Mr. Henderson follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.034
    
    [GRAPHIC] [TIFF OMITTED] T6625.035
    
    [GRAPHIC] [TIFF OMITTED] T6625.036
    
    [GRAPHIC] [TIFF OMITTED] T6625.037
    
    [GRAPHIC] [TIFF OMITTED] T6625.038
    
    [GRAPHIC] [TIFF OMITTED] T6625.039
    
    [GRAPHIC] [TIFF OMITTED] T6625.040
    
    [GRAPHIC] [TIFF OMITTED] T6625.041
    
    Chairman Tom Davis. Thank you very much.
    Judge Starr, thank you for being with us.
    Judge Starr. Thank you, Mr. Chairman.
    My comments go exclusively to the issue of the 
Constitutional authority of the Congress to effect one or more 
changes. I will not discuss, as I know others are, the policy, 
much less the political implications.
    In my judgment, Congress does enjoy authority to create a 
seat in the House of Representatives, fully voting seat. And 
the source of authority I find in Article I, Section 8, the 
great powers clause or provision of the Constitution, which 
then enumerates a number of specific rights, particularly of 
relevance here, Clause 17, which is worded quite broadly and 
quite majestically. I note that it precedes the grand necessary 
and proper clause, which has been authoritatively interpreted 
by Chief Justice John Marshall early in the history of the 
Republic to grant enormous powers to the Congress of the United 
States.
    The language is quite simple, yet very broad, to exercise 
exclusive legislation in all cases whatsoever over the District 
of Columbia. This is plenary power. But as Congress' powers 
over the District are not limited to simply the powers that a 
State legislature might possess over a State. But as emphasized 
by Federal courts on numerous occasions, including the Supreme 
Court, the Seat of Government clause is majestic.
    In the words of the Supreme Court, ``The object of the 
grant of exclusive legislation over the District was, 
therefore, national in the highest sense. . . . In the same 
article which granted the powers of exclusive legislation . . . 
are conferred all the other great powers which make the 
Nation.'' My structural point. The location of the Seat of 
Government clause in a section of the Constitution that confers 
broad powers on the Congress. The language I quoted was from 
1933, The O'Donoghue v. the United States.
    Now, the Constitution does not speak to voting rights, and 
it certainly does not speak to the voting rights of those in 
the seat of government. And in light of that, some textualists 
and indeed, some courts, have insisted that Article I 
effectively disenfranchises the District's residents in 
congressional elections, barring an amendment to the 
Constitution. In my view, that's quite wrong. Legislation to 
enfranchise the District's residents presents an entirely and 
altogether different set of issues from those that courts have 
addressed in calling into question the scope of congressional 
power.
    And while it's true that the Constitution does not 
affirmatively grant the right to vote in congressional 
elections, to District elections, it does grant Congress 
plenary power to govern the District's affairs. Thus, when we 
look at the entire cascade of cases over our two centuries, the 
Judiciary has rightly shown considerable deference where 
Congress announces its considered judgment that the District 
should be considered as a State for specific legislative 
purposes.
    I cite too, Congress we now know may exercise its power to 
regulate commerce across the District's borders, even though 
the Commerce Clause of Article I refers only to commerce among 
the several States. Congress may also, as we now know, bind the 
District with a duly ratified treaty which allowed citizens of 
France to inherit property in the States of the Union, a 
decision by the Supreme Court in 1890.
    An issue arose with respect to diversity jurisdiction, 
lawsuits between citizens of different States. And in 1949, the 
Supreme Court's decision in the Tidewater case upheld Congress' 
determination that diversity jurisdiction should extend to 
citizens of the District of Columbia as an appropriate exercise 
of power under the Seat of Government Clause. That holding 
confirms, I believe, what the law has long been understood to 
say.
    Moreover, and I set this out in my written testimony in 
brief form, I believe fundamental principles of representative 
democracy likewise support the extension of the franchise in 
this respect, and I cite various cases including Powell v. 
McCormack and the U.S. Term Limits case. In my judgment, 
Congress enjoys Constitutional authority.
    [The prepared statement of Judge Starr follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.042
    
    [GRAPHIC] [TIFF OMITTED] T6625.043
    
    [GRAPHIC] [TIFF OMITTED] T6625.044
    
    [GRAPHIC] [TIFF OMITTED] T6625.045
    
    [GRAPHIC] [TIFF OMITTED] T6625.046
    
    [GRAPHIC] [TIFF OMITTED] T6625.047
    
    [GRAPHIC] [TIFF OMITTED] T6625.048
    
    [GRAPHIC] [TIFF OMITTED] T6625.049
    
    Chairman Tom Davis. Judge Starr, thank you very much.
    Mr. Zherka.
    Mr. Zherka. Mr. Chairman, Congresswoman Norton, members of 
the committee, thank you very much for inviting me to testify 
at this historic hearing on how we fulfill the promise of 
American democracy for people living in the Capital of the free 
world.
    Senator Robert Dole once said the District of Columbia is 
not just a plot of land full of big white buildings and people 
who have come here temporarily to work for the Federal 
Government. Rather, it is a home to almost three-quarters of a 
million people who should be granted congressional 
representation, just as the citizens of our States are.
    Senator Dole and others on this committee and throughout 
our history supported full voting representation in Congress 
for District residents, because they understood that real 
people live here who deserve to be treated like real Americans, 
people like Iliana Canefield, who is in the third grade, is a 
member of the Young Suffragists, and dreams of representing 
D.C. in the U.S. Senate. People like James Davis, a native 
Washingtonian and recent high school graduate, who does not 
understand why D.C. should only get a voting Member of the 
House.
    People like Bruce Spiva, a partner at a law firm that 
handles civil rights cases. As he fights for the rights of 
others, he himself is denied the most fundamental civil right 
of a democracy, the right to choose those who make our laws. 
People like Frank Rich, who has lived his entire life in this 
great city, served this Nation in World War II and Korea, to 
defend democracy, but still does not enjoy the fruits of 
democracy here at home.
    These people are just like the people in your districts. 
They play by the rules, pay their taxes, serve our Nation in 
times of war, and love this country. And yet we treat them like 
second class citizens, and that is shameful.
    This hearing offers hope, however, that things will change. 
For this hearing is not about whether D.C. should have voting 
representation, but how to achieve that result. D.C. Vote 
strongly supports the No Taxation Without Representation bill, 
because that bill leaves D.C. intact, treats D.C. like a State 
for purposes of representation, and provides equal 
representation in the House and Senate without amending the 
Constitution.
    Congress already treats Washington, DC, as we just heard, 
like a State for purposes of Federal law and regulations. We 
think that's the right approach. But we also believe that for a 
bill to be enacted, it must have bipartisan support. 
Unfortunately, none of the bills we are considering today and 
talking about has such support thus far.
    As the Congress considers how to provide, on a bipartisan 
basis voting representation for D.C., we would like to offer 
two principles. First, be creative. Other countries with 
Federal cities have solved this problem in different ways. In 
Australia, for example, the two Senators representing the 
capital, Canberra, serve 3 year terms rather than the 6-year 
term that Senators from the States serve. Chairman Davis' idea 
of adding two seats to the House is certainly a creative 
approach and should be seriously considered by all sides.
    We believe that voting representation in the U.S. House of 
Representatives is important. We support efforts to achieve 
that result and encourage others to do the same. That said, we 
believe that Congress should follow a second principle: pass a 
bill that provides representation in both chambers. This is a 
bicameral legislature, and D.C.'s biggest disadvantage, as the 
Congresswoman said earlier, now is that it has absolutely no 
representation, voting or otherwise, in the Senate. That much 
change, and this Congress has the power to change it now.
    Mr. Chairman, members of the committee, as the U.S. fights 
wars and spends billions of dollars securing the rights of 
voting representation for people living in Baghdad, Kabul and 
elsewhere, let us also put an end to the shameful denial of 
voting representation for D.C. residents.
    I commend you for holding this hearing and for your 
devotion to ending this injustice. I look forward to working 
with you and the Congress in the future, and to your questions 
today. Thank you very much.
    [The prepared statement of Mr. Zherka follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.050
    
    [GRAPHIC] [TIFF OMITTED] T6625.051
    
    [GRAPHIC] [TIFF OMITTED] T6625.052
    
    Chairman Tom Davis. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    My name is Walter Smith. I have a terrible, terrible cold, 
so I'll be as brief as you probably want me to be.
    Let me say at the beginning, I was one of the lawyers who 
brought the lawsuit now almost 6 years ago, July 4, 1998, 
asking a three judge Federal court to declare then that it was 
unConstitutional that citizens in the District do not now have 
full voting representation, and it was only by a two to one 
vote we didn't get that remedied immediately and on the spot.
    But what a lot of people don't realize is that although we 
lost that case only by a two to one vote, far from saying that 
District citizens should not have full voting representation, 
what that court actually said was that it is unfair and 
inequitable and a serious grievance that we do not have that 
voting right today, and it passed the issue to the Congress. It 
is to your great credit, Chairman Davis, and to yours, Ms. 
Norton, that you are now addressing that in the way the court 
invited you to do.
    Let me make five quick points, please, about the issues 
that are before you right now. The first is that in our view, 
there is no principled basis whatever, none, to continue to 
deny voting representation to citizens of the District. I don't 
want to repeat any point anyone's made before, but let me make 
one that no one has pointed out. We see ourselves as the 
greatest democracy on Earth. We are the only democracy on Earth 
that has a capital that denies democratic rights to the 
citizens of that capital. It is an international disgrace that 
is so. And again, I am pleased to be part of an effort to begin 
to remedy that situation.
    My second point is that we fully support full voting 
representation for the citizens of the District. And for that 
reason, D.C. Appleseed has long supported Ms. Norton's bill.
    My last three points are all legal points, and Congressman 
Davis, you asked in the request that I look at these. As you 
know, they are addressed in my testimony and in the memos that 
I attached to it. But let me make three quick points.
    First of all, we have written a number of memos, one 
several years ago, some coming from the distinguished law form 
of Latham and Watkins, pointing out what I hear Mr. Starr 
joining us in saying today, what Judge Starr has said, and I'm 
very pleased to hear his analysis of the issue. The Congress, 
under the District Clause, has the power to grant voting 
representation to citizens of the District. And I urge you to 
exercise that power soon.
    We also think, and this is a separate point, that if in 
fact you proceed on what people have been calling an interim 
basis, and we like others support full voting representation, 
but if you proceed on an interim basis, we do think included 
within the broad power under the District Clause you have the 
authority to proceed by interim steps, whether it is granting 
voting representation in one House or the other House or voting 
representation in one House and then non-voting delegates in 
the other. That's included within the board power that you have 
to grant full voting representation.
    My last two points have to do with the bills that talk 
about effectively granting us representation through Maryland. 
And as you know from the memos we have attached, we have 
serious Constitutional concerns with those proposals, even 
though we applaud the fact that those bills are here and 
represent an effort by other Members of Congress to find a 
bipartisan approach to at long last bring us what we're 
entitled to.
    And let just quickly say two of the reasons we're concerned 
about the Maryland approach. First, and the most important one, 
and Ms. Norton referred to this, under the Constitution, 
Article I, Section 2, only an inhabitant of any given State can 
represent that State in the Congress of the United States. So 
that if you deemed to treat us only as citizens of Maryland for 
purposes of voting, then no one who lives in Washington, DC, 
can ever represent Washington, DC, in the Congress.
    And that's one of the good things that came out of the 
court case that I participated in, because the court itself 
said that is so, and said we'd be the only people in the 
country who have voting representation without any chance of 
being people who can actually represent ourselves. You should 
not choose that route.
    The other reason you shouldn't choose that route is because 
we do not think that Congress has the authority as explained in 
the memo to deem citizens of one jurisdiction to be citizens of 
another jurisdiction for voting purposes. That is not within 
the power of the Congress.
    We urge you to move forward as the remarks of all the 
people here have indicated you should do. And again, we commend 
Chairman Davis for taking the lead in this effort.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.053
    
    [GRAPHIC] [TIFF OMITTED] T6625.054
    
    [GRAPHIC] [TIFF OMITTED] T6625.055
    
    [GRAPHIC] [TIFF OMITTED] T6625.056
    
    [GRAPHIC] [TIFF OMITTED] T6625.057
    
    [GRAPHIC] [TIFF OMITTED] T6625.058
    
    [GRAPHIC] [TIFF OMITTED] T6625.059
    
    [GRAPHIC] [TIFF OMITTED] T6625.060
    
    [GRAPHIC] [TIFF OMITTED] T6625.061
    
    [GRAPHIC] [TIFF OMITTED] T6625.062
    
    [GRAPHIC] [TIFF OMITTED] T6625.063
    
    [GRAPHIC] [TIFF OMITTED] T6625.064
    
    [GRAPHIC] [TIFF OMITTED] T6625.065
    
    [GRAPHIC] [TIFF OMITTED] T6625.066
    
    [GRAPHIC] [TIFF OMITTED] T6625.067
    
    [GRAPHIC] [TIFF OMITTED] T6625.068
    
    [GRAPHIC] [TIFF OMITTED] T6625.069
    
    [GRAPHIC] [TIFF OMITTED] T6625.070
    
    [GRAPHIC] [TIFF OMITTED] T6625.071
    
    [GRAPHIC] [TIFF OMITTED] T6625.072
    
    [GRAPHIC] [TIFF OMITTED] T6625.073
    
    [GRAPHIC] [TIFF OMITTED] T6625.074
    
    [GRAPHIC] [TIFF OMITTED] T6625.075
    
    [GRAPHIC] [TIFF OMITTED] T6625.076
    
    [GRAPHIC] [TIFF OMITTED] T6625.077
    
    [GRAPHIC] [TIFF OMITTED] T6625.078
    
    [GRAPHIC] [TIFF OMITTED] T6625.079
    
    [GRAPHIC] [TIFF OMITTED] T6625.080
    
    [GRAPHIC] [TIFF OMITTED] T6625.081
    
    [GRAPHIC] [TIFF OMITTED] T6625.082
    
    [GRAPHIC] [TIFF OMITTED] T6625.083
    
    [GRAPHIC] [TIFF OMITTED] T6625.084
    
    [GRAPHIC] [TIFF OMITTED] T6625.085
    
    Chairman Tom Davis. Thank you.
    Ms. Werronen, thank you for being with us.
    Ms. Werronen. Thank you, Mr. Chairman.
    I'm Betsy Werronen, the chairwoman of the D.C. Republican 
Party. Before I begin my testimony, I would just like to make a 
brief aside. Our new headquarters here in the District is 
called the Edward W. Brooke Leadership Center. And I think that 
it is very fitting that today, when we all participate in this 
hearing, that Senator Brooke is going to the White House to be 
presented the Medal of Freedom by President Bush.
    I'd like to say, Senator Brooke is a proud product of D.C. 
public schools, of Howard University, but he had to go to 
Massachusetts to be elected to the Senate.
    Now, on behalf of the members of the D.C. Republican 
Committee, I speak in full support of voting rights for the 
people of the District of Columbia in the Congress of the 
United States. Our Republican Party has a proud heritage in 
support of voting rights for all Americans. We are proudly the 
party of Lincoln, and from Frederick Douglass, the former 
slave, abolitionist and suffrage advocate to Everett Dirksen, 
who sent the first Home Rule bill to be reported to the House 
in over 75 years, Republicans have continued to champion the 
right of all to express their most fundamental democratic 
right, their vote.
    The 1948 Republican platform at the insistence of our 
President's grandfather, Senator Prescott Bush, contained a 
plank calling for self-government and national suffrage for the 
Nation's Capital. And Republican party platforms from 1960 
through 1976 supported Home Rule and D.C. voting 
representation. I want to assure you that the D.C. delegation 
to the Republican National Convention in August will carry the 
fight for such a plank in this year's Republican platform.
    I'd like to submit for the record Nelson Rimensnyder, a 
congressional historian, who has done extensive work in this 
area, a paper of his, Republicans and D.C. Voting Rights.
    Chairman Tom Davis. Without objection, that will be put 
into the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.086
    
    [GRAPHIC] [TIFF OMITTED] T6625.087
    
    [GRAPHIC] [TIFF OMITTED] T6625.088
    
    [GRAPHIC] [TIFF OMITTED] T6625.089
    
    [GRAPHIC] [TIFF OMITTED] T6625.090
    
    [GRAPHIC] [TIFF OMITTED] T6625.091
    
    [GRAPHIC] [TIFF OMITTED] T6625.092
    
    [GRAPHIC] [TIFF OMITTED] T6625.093
    
    [GRAPHIC] [TIFF OMITTED] T6625.094
    
    [GRAPHIC] [TIFF OMITTED] T6625.095
    
    [GRAPHIC] [TIFF OMITTED] T6625.096
    
    [GRAPHIC] [TIFF OMITTED] T6625.097
    
    [GRAPHIC] [TIFF OMITTED] T6625.098
    
    [GRAPHIC] [TIFF OMITTED] T6625.099
    
    [GRAPHIC] [TIFF OMITTED] T6625.100
    
    [GRAPHIC] [TIFF OMITTED] T6625.101
    
    [GRAPHIC] [TIFF OMITTED] T6625.102
    
    [GRAPHIC] [TIFF OMITTED] T6625.103
    
    [GRAPHIC] [TIFF OMITTED] T6625.104
    
    [GRAPHIC] [TIFF OMITTED] T6625.105
    
    [GRAPHIC] [TIFF OMITTED] T6625.106
    
    [GRAPHIC] [TIFF OMITTED] T6625.107
    
    [GRAPHIC] [TIFF OMITTED] T6625.108
    
    [GRAPHIC] [TIFF OMITTED] T6625.109
    
    [GRAPHIC] [TIFF OMITTED] T6625.110
    
    [GRAPHIC] [TIFF OMITTED] T6625.111
    
    [GRAPHIC] [TIFF OMITTED] T6625.112
    
    Ms. Werronen. Thank you.
    I thought it was important to convey for the record the 
role of the Republican Party in securing basic rights to the 
residents of the District. But the right for American citizens 
to vote should not be a Republican or a Democrat issue. I think 
the bipartisan spirit that has been exemplified here today 
shows that on issues of importance to the residents of the 
District, we can and will work together. Having our Mayor, our 
Council and the local Republican party united demonstrates how 
important this issue is to the people of the District, 
regardless of party.
    Let me make several important points. I want to talk on 
principle first, and not really get into the specifics of the 
details of achieving this. The residents of the District of 
Columbia are citizens of the United States. We are entitled 
under the Constitution to the same rights and responsibilities 
as all other citizens.
    District residents have uncomplainingly accepted our 
responsibilities, including the obligation to serve in the 
defense of our country and the obligation to pay taxes, just 
like all other citizens. It is the right thing to do. And 
today, there is simply no justification for not granting this 
basic right.
    Second, we recognize that there are several options for 
granting District residents voting representation that they are 
entitled to. But because the District of Columbia is a unique 
entity, set up by our founding fathers as a Federal city, 
Congress can show creativity and practicality in implementing 
voting representation.
    And as an important first step, we support fully the option 
of voting rights for a representative of the District in the 
House of Representatives. We believe this is the most 
achievable way to grant our citizens their rights and honor the 
principles and spirit of the Constitution. We urge you, Mr. 
Chairman, and this committee, to aggressively pursue the goal 
of full voting rights for a representative of the District to 
the U.S. House. We pledge to do all that we can to help the 
Congress achieve it.
    Thank you.
    [The prepared statement of Ms. Werronen follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.113
    
    [GRAPHIC] [TIFF OMITTED] T6625.114
    
    Chairman Tom Davis. Thank you very much.
    Mr. Trabue, thank you. Last but not least.
    Mr. Trabue. Good afternoon, Chairman Davis, Congresswoman 
Norton and members of the committee. Thank you for having me 
this afternoon.
    For the record, my name is Ted Trabue, and I'm the regional 
vice president for District of Columbia affairs at PEPCO, which 
is our local electric provider. But I'm here today to speak on 
behalf of the Greater Washington Board of Trade.
    I find it kind of odd today to be in on this panel, because 
I think I am the only native Washingtonian who has come before 
this committee today to speak. I'm a fourth generation 
Washingtonian, and I am really happy to be a Washingtonian 
here--there's another one? Great. Glad to hear that there's one 
other--to support particularly the Norton bill and the Davis 
proposal.
    I'd like to go back a little bit, because we talked about 
some of the history of the District, and I know there are a lot 
of interns here in the room. My first internship was with the 
old House District Committee, under the chairmanship of the 
Honorable Charlie Diggs. I remember some of the discussions 
that were going on over 25 years ago in that committee.
    It saddens me that we are here over a quarter of a century 
later, debating some of those very same issues. I just hope 
that by the time that these young fellow native Washingtonians 
grow up that we still won't be in the midst of this debate. I 
am heartened today, though, that this is not about the merits, 
it's about the methodology. I think that everybody who has 
testified here today, and clearly as demonstrated by your 
leadership on this issue, you get it. You understand. You very, 
very clearly understand it. We need to move forward.
    The Board of Trade is frustrated with the ongoing 
disenfranchisement of the District of Columbia. As the seat of 
our Nation's Government, our city has stood for over 200 years 
as one of the world's grandest and most enduring icons of 
democratic aspiration. Over time, the laws passed here have 
validated and strengthened the notion of equal protection and 
have guided our Nation's defense of human rights at home and 
abroad, and have served as a blueprint for other nations 
pursuing representative government.
    As was noted earlier, like Canberra in Australia, Mexico 
City, Brazilia, Ottawa up in Canada, were all modeled after our 
Nation's Capital. But what is unique to our circumstances is 
that we are clearly denied the fundamental rights of American 
citizenship.
    Let me speak to two of the bills that are not the table 
today, H.R. 381, which talks about reunion with Maryland, and 
H.R. 3709, which talks about allowing District residents to 
vote in Maryland elections. While both bills have some 
historical and possibly legal precedent, the Board of Trade 
finds both of them to be politically impractical. In essence, 
we would not like the Congress to talk about turning the clock 
back 200 years in an effort to move forward. We think that the 
plans that have been presented by Congresswoman Norton and 
Congressman Davis are very, very good plans on moving forward 
and putting the Nation's Capital on fair ground with the rest 
of the 50 States in the United States.
    Chairman Davis and Ms. Norton, I am conscious of the time 
and your need to wrap up this hearing, so I will conclude my 
statement.
    [The prepared statement of Mr. Trabue follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.115
    
    [GRAPHIC] [TIFF OMITTED] T6625.116
    
    Chairman Tom Davis. Thank you very much.
    Judge Starr, let me start with you. I found your testimony 
very powerful. What you're saying, though, is that this is a 
legislative remedy, not a judicial remedy. Because there have 
been a number of suits under the clause that you discussed.
    Judge Starr. That's correct. It is Congress that enjoys the 
power under Article I, again, the power is one of the specific 
enumerated powers that has then been judicially interpreted to 
be very broad, or as the Supreme Court has said, majestic in 
its scope, or plenary. It's Congress and not the judiciary that 
enjoys the power.
    Chairman Tom Davis. The fact that at the time the 
Constitution was written, the District of Columbia was a part 
of two different States at that point, it was created in 1790, 
the Constitution was written, of course, and ratified prior to 
that. And then from 1790 to 1800, people who lived in the 
District were voting in Maryland and Virginia for Congress for 
the House, because Senators were appointed at that point.
    Does that add anything, or do you think the plenary power 
just by itself is enough?
    Judge Starr. I think the plenary power by itself is enough, 
but I do believe that a court would be intrigued by that 
historical context; that is, that there was at the founding of 
the Republic enfranchisement, there was the ability to elect 
State legislators, for example, in addition to a Member of the 
House of Representatives. And the State legislators, of course, 
then elected the Senate. So there was full enfranchisement at 
that time, in terms of, obviously there were other issues in 
terms of disqualifications on very tragic grounds.
    But those who were permitted to vote on the basis of 
residency were able to vote fully and completely. What I think 
a court would take into account, or it's certainly logical for 
a court to take into account, is that as a matter of history, 
the ratifiers of the Constitution, as well as the drafters, 
simply were not contemplating this particular specific issue. 
But I think covered it by virtue, again, of the breadth of 
Clause 17.
    Chairman Tom Davis. There's just no question that the 
founders never envisioned this to be a city of over a half a 
million people and that voting rights would be extended to 
other groups. It's a completely different world at this point.
    Judge Starr. Completely different world. And that's why, 
for example, in other areas, the Constitution is interpreted by 
the Supreme Court in ways in which the framers might have found 
odd, such as in freedom of speech. It is now widely agreed that 
freedom of speech includes symbolic speech. Yet as great a 
Justice as Hugo Black would say, no, it doesn't go that far.
    Now, what's happened is we have a fuller and richer 
understanding of the meaning of ``freedom of speech.'' And I 
think so too when we look even at structural arrangements in 
the Constitution, we have a fuller and deeper understanding, as 
guided here very helpfully by Supreme Court decisions that have 
already addressed the issue of, can the District for purposes 
of specific provisions in the Constitution be a State. And the 
Supreme Court has said, yes, it can.
    Chairman Tom Davis. Previous Congresses have concluded that 
a Constitutional amendment was required to provide voting 
representation in the District. This was kind of the 
assumption. But the Congress is not bound by the conclusions of 
previous Congresses, are they?
    Judge Starr. I would certainly hope not, and it certainly 
has never been the law that the Congress of the United States, 
elected by the people and who in turn take an oath to uphold 
the Constitution are somehow bound by a possibly, if not 
completely erroneous view of what the Constitution means. So 
there should be no freeze-in or lock-in effect at all, in my 
judgment.
    Chairman Tom Davis. Mr. Trabue, I'm curious to know if the 
Board of Trade sees representation as a business issue.
    Mr. Trabue. We do see it as a business issue. Very clearly, 
as you might recall, a number of years ago when we were working 
on the Woodrow Wilson Bridge project, that was clearly an issue 
where you had the three jurisdictions, Maryland, Virginia and 
the District of Columbia, having to come together, because all 
three of those jurisdictions were going to have to deal with 
the funding on that bridge, and therefore then have to go to 
Transportation Committee to get authorization for that funding.
    There's a very clear example where we would have been 
strengthened in our numbers if Congresswoman Norton or if the 
District had had a vote at the table. Clearly, business, 
transportation is a huge issue for us, and it's clearly a 
business issue.
    Chairman Tom Davis. I'm going to recognize Ms. Norton, 
she's got a bill on the floor, she's got to go. She can speak 
on the floor, as you know, she can put amendments on, she just 
can't vote on her bill. But she's going to go talk. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I have a 
bill that's coming up that I expect to be passed, recognizing 
the 40th anniversary of the 1964 Civil Rights Act and the Equal 
Employment Opportunity Commission, which I chaired, and thus I 
would like to speak to this bill.
    I'm going to quickly ask some questions right down the 
line, if I can quickly go down the line. Mr. Henderson first, 
very thoughtful testimony and probing some of the legal issues 
as well. I noticed that you said at page 5 that Congress could, 
might as a way to avoid political unfairness actually itself 
define the new congressional district boundaries in the 
legislation. Of course, this is redistricting.
    I wonder if you'd had an opportunity, or if anyone at the 
Leadership Council has had an opportunity to look closely at 
that as a Constitutional matter. Redistricting must be done 
with a State. Congress has power to say how many districts. 
Within a State, how that is redistricted as a Constitutional 
matter is jealously guarded by the States. One wonders if one 
could--I mean, I'd be very interested in that, since that 
obviously is one of the issues I have raised. One wonders if 
you have yet given that to a bunch of Constitutional lawyers to 
look at, or whether you would agree to do so.
    Mr. Henderson. We certainly have agreed to do so, and we 
will be seeking additional advice on the interpretation of what 
Congress' authority would permit under these circumstances.
    But I think you correctly note that we observe the 
complications caused by a redistricting solution appended to 
any bill seeking to provide full voting representation, or even 
partial voting representation for District citizens. Our 
concern of course is that redistricting tends to be, in most 
jurisdictions, a political question.
    Obviously Congress sought to avoid those issues with 
respect to some of the particular and unique problems 
associated with minority voters. And the Voting Rights Act 
anniversary is, I think, one of the seminal events of civil 
rights that we note. That anniversary comes up next year, the 
Civil Rights Act anniversary is of course occurring now. It's 
only fitting that these issues are subject to discussion.
    But I think the Constitutional questions raised by the 
redistricting aspect of other bills that are under 
consideration indeed require further explanation, which is one 
of the cautions that we've cited.
    Ms. Norton. I appreciate that caution in your own 
testimony. Nothing is guarded more zealously within States than 
their right to redistrict. The reason I would like that 
explored is I wonder if Congress would ever allow a precedent 
whereby Congress said that, what the redistricting would be in 
a given State, or whether we could ever get that through. I 
raise this, because there have been all these assumptions about 
pragmatic. We ought to decide what we can get through here, and 
a whole bunch of people could line up and say, or, could they. 
And that's my question. Could they then line up and say, you're 
creating a precedent for Congress redistricting, and that is a 
no-no, at least it has been for most of our history. It would 
be very important, because I think that would help clear away 
one of the issues that has been raised.
    Mr. Starr, I very much appreciate your testimony. As you 
are perhaps aware, your testimony helps the chairman's bill, it 
helps my bill as well, because you talk about the plenary power 
of Congress. That is something that we have thought does exist.
    I wonder if proceeding on the way Congress has decided that 
the District should be considered a State, for virtually every 
purpose, is it your view that Congress could have denied, if it 
would like, considering the District for some purposes, or 
could consider the District a State for some purposes and not 
other purposes? Is this entirely a plenary power of the 
Congress of the United States, with no controls whatsoever from 
the Constitution itself? Or is the Congress simply interpreting 
what it thinks the Constitution meant when it set up a District 
of Columbia, that it meant for the District of Columbia to be 
treated as a State for these purposes, and it's simply 
pronouncing that, and the judiciary is following what the 
Congress has in fact pronounced flowing from the Constitution 
itself?
    Judge Starr. I would say, Congresswoman Norton, that the 
Congress is exercising its own judgment, reflecting upon the 
State of the law as well as the development and evolution of 
the District of Columbia, and is responding to that in a way 
that, in its virtually unfettered judgment, it is entitled to 
under the provision of the Constitution that I think empowers 
it to make these judgments.
    But it's a judgment call, as opposed to a mandate of the 
Constitution as I see it, to treat the District in a particular 
manner. In other words, the power is vested in Congress to come 
to a judgment at the national legislature as how to treat the 
District, as most of the Constitution, driving it in one 
particular direction. But a huge caveat, and that is, I do not 
believe that plenary power is so unfettered that the Congress 
could violate other provisions of the Constitution.
    Ms. Norton. Such as statehood, for example. I'm trying to 
find the limits of this power. If in fact they can go down the 
line and they have virtually gone down the line and defined us 
as a State for every purpose except voting rights, you're 
saying, so go to the next step and define the District as a 
State for voting rights. Is that what you're saying?
    Judge Starr. I think that's right, that Congress can in 
fact move and say, we're going to define voting rights the 
District as a matter of power, as a State, entitled to the full 
prerogatives of the State. Now, I do not, I think an argument 
that will be mounted the other way, if I may, and that is the 
23rd amendment, of course, ratified in 1961, which is used as 
an argument to the effect that Congress does not enjoy the 
power, because of the sense that there needed to be, and Mr. 
Henderson spoke to this, a Constitutional amendment with 
respect to representation as it were in the electoral college.
    Now, why is that? I think the judgment was that the 
election of the President is one thing that has truly, may I 
say, national significance, in a way that is as important as 
the election of any single Member of the House of 
Representatives to the Nation as a whole, still the degree of 
importance obviously to the particular jurisdiction is 
extremely high. So I think as a prudential matter, the 
determination was made that with respect to an issue as grand 
as the election of the President of the United States, there 
should be no doubt, let's have a Constitutional amendment. That 
was a judgment call. I don't think it binds you.
    Ms. Norton. Thank you very much. I'd like to say to Ms. 
Werronen how much I appreciate the work you have done in the 
District for congressional voting rights, and how principled 
you've been, in fact, harking as you said in your testimony to 
where Republicans in our city and Republicans nationally had 
long been. We were extremely disappointed that in the 2000 
Republican National Convention that the party actually removed 
its longstanding support for congressional voting rights.
    Now, you say that you will carry a plank, I wish you would 
tell us whether you are working on language for such a plank 
and whether you believe, given the fact that they actually 
extracted voting rights, something they had always been for, 
what you think are the chances of reinserting voting rights as 
it was before into your platform?
    Ms. Werronen. I will in August be, as a delegate, be a 
member of the platform committee. Our full D.C. Republican 
Committee just passed its own local platform, and that indeed 
contains a plank on voting rights.
    What we hope to do is to work with the White House and to 
work with the platform committee on language that affects the 
District of Columbia.
    Ms. Norton. We would love to have for the record what the 
local party plank would be, if you would be so kind as to 
submit your plank for the record.
    Ms. Werronen. Absolutely.
    Ms. Norton. Thank you.
    Chairman Tom Davis. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6625.186
    
    [GRAPHIC] [TIFF OMITTED] T6625.187
    
    [GRAPHIC] [TIFF OMITTED] T6625.188
    
    Ms. Norton. I very much appreciate your testimony, Walter 
Smith, especially given your encyclopedic knowledge of all of 
the Constitutional issues involved. You indicate that you 
would, that Appleseed would support the approach of one House 
vote only, but only if we would support--let me just quote it. 
We would support that approach only if those were in fact steps 
toward ultimate full voting representation.
    One of the, I have raised earlier that I am literally in 
the process of trying to think through those steps. Because 
there's been a lot of lip service, almost no analytical 
thinking about, let's see how this would help us get to the 
next step. See, I think it is possible to think through that 
issue. What is dangerous is the notion that you don't even have 
to think about it somehow, if you get there you're going to get 
to the next step.
    What I'd like to know is if you have begun to think through 
the issue of how getting one House, something that would be, 
something I would devoutly desire on my watch, would in fact 
help us to get to the next House where frankly, all that the 
District needs now resides, since most of what it needs here it 
can get.
    Mr. Smith. Yes, we have thought about it, Ms. Norton. And 
one of the arguments in favor, if this is how it plays out, and 
if you end up supporting it, is that once you have the vote in 
one House, it gives you a platform upon which to argue, a 
higher platform to argue for completion of the journey, rather 
than doing it, as someone said before, all in one leap or one 
bound.
    But a lot of it depends, as you've pointed out more than 
once here this morning, in the political give and take that is 
going to have to occur as you build a bipartisan consensus 
support for one approach or the other.
    Ms. Norton. I would like to invite you, Mr. Smith, and 
Appleseed, to help me as you have in the past to think through 
those steps. Because I think they can be thought through. 
Virtually everyone at the table has been helpful in thinking 
through such steps before, and I think they would advance the 
House only proposal considerably.
    I'd like to ask you, Mr. Zherka, about ground breaking work 
that D.C. Vote did about voting rights and see if there has 
been any followup on that. I was astounded to discover that 
D.C. voting, that most Americans, even most college educated 
Americans, did not know that the District did not have voting 
rights. I wonder if D.C. Vote has any indication of whether 
there's been any improvement in at least the knowledge of the 
District's voteless status since your poll of some years ago?
    Mr. Zherka. We're actually working, thank you, 
Congresswoman, we're working very closely with some local 
foundations to put together a proposal and a grant to achieve 
that goal, to poll nationally to find out if knowledge of this 
problem has increased. A number of years ago there was a 
national poll, in 1998, that showed that a majority of 
Americans didn't even know that the District was 
disenfranchised. We need to go back and figure out if that's 
changed. I suspect that it may have changed a little bit, but 
probably not much.
    There's a lot of education that needs to happen. We are 
trying to educate people as much as we can. We're a small 
organization, but we're working together with the Leadership 
Conference on Civil Rights and other groups to put together 
public service announcement campaign. We'd like to have, from 
the chairman and from this Congress, really the freedom to give 
the District the freedom to spend its own money, to lobby on 
this issue, to educate on this issue, and to do the work that's 
necessary to support this movement, to support measures that 
are being talked about up here.
    So we want to urge you, Congresswoman, and the chairman, to 
as you're thinking about this issue, also think about the lobby 
prohibition rider in the appropriations bill and free up the 
District to engage this question and educate people.
    Ms. Norton. Thank you very much. I must say, I think we 
ought to be able to get a small grant to do this. We need to 
know whether or not anybody knows this except us. We really 
can't move very much in Congress unless we get some feedback 
from Americans who are astounded when they learn this. And if 
they don't know it, there will be no pressure out there. So I 
very much appreciate the work you've done in that regard.
    Finally, Mr. Trabue, I wonder if you'd tell us how you 
operate when you have matters involving the District of 
Columbia that need, the predicate for my question is, you 
obviously are from the private sector. Let me just say how much 
we appreciate that because the Board of Trade is regional, it 
has nevertheless come forward and supported D.C. voting rights. 
That kind of reach is very important to us.
    You represent many issues the way a business, and represent 
businesses in the District of Columbia, in the same way that 
your corollary organizations would represent businesses in 
Maryland and Virginia, let's say. What do you do if in fact you 
have a piece of legislation that is vital, involves a District 
of Columbia business matter, you have me here, how do you get 
that through the Senate? Tell us the processes you use.
    Mr. Trabue. Congresswoman Norton, let me give you a closer 
to home example. I work for PEPCO, as you know, and we have a 
number of issues that are of very great importance to us on the 
Federal level, particularly energy policy, because that 
directly affects our business. Although we are headquartered 
here in the District of Columbia, we are a Fortune 300 company. 
We don't have two Senators with whom we can directly correspond 
and help us on some of these Federal matters, or matters that 
may come before the Federal Energy Regulatory Commission.
    We work through national trade associations at great 
expense, mind you, to the company, to the residents and 
businesses here in the District of Columbia, but we have to 
work through national trade associations to try to make sure 
that some of our views are heard and hopefully incorporated in 
legislation that is moving before the Senate. So we are working 
at a great disadvantage. I take my company as an example, but 
there are a myriad of others here in the city who I'm sure have 
very similar problems and constraints.
    Ms. Norton. Thank you very much. And thank you, Mr. 
Chairman.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton. I apologize for running out early to go to the 
floor.
    Chairman Tom Davis. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. I want to thank you and 
the Ranking Member Norton for bringing this important issue 
forward.
    In the interest of time, I have one question for the entire 
panel, and we can start with Mr. Henderson and go down the 
table. Let me preface this by saying that as a young, as a 
freshman member of the Missouri Legislature in the mid-1980's, 
I sponsored an amendment to a resolution that would ratify the 
D.C. Voting Rights Amendments, statehood amendment.
    Of course, as we all know, only 16 out of 38 States 
ratified that amendment. Almost 20 years fast forward, in your 
opinion, should we continue to pursue the initiative of full 
statehood rights for the District of Columbia, or do you think 
in a practical manner there should be some fallback position, 
or should we continue to go for two U.S. Senators as well as a 
voting Member in the House? And how practical do you think that 
is, 20 years into the future?
    Mr. Henderson. It's a challenging question, Mr. Clay. First 
of all, let me thank you for your years of support and 
leadership on the issue of full voting representation for D.C. 
citizens. As a native D.C. citizen myself, I think the issue of 
voting representation for the citizens of Washington is, as I 
noted earlier, one of the paramount human and civil rights 
issues of our time.
    I think the aspirations of D.C. citizens to be represented 
in both Houses of Congress, to have full voting representation, 
a meaningful right to participate in the debates of our time, 
and an ability to have an impact on the decisions that affect 
their lives are really one of the controlling factors of 
citizenship in our country as a whole. And I note at the real 
anomaly of having voting rights denied District residents while 
seeking to provide that for citizens of every other part of the 
world. It is quite likely that the citizens of Baghdad will 
have full voting representation, while the citizens of the 
District of Columbia will struggle to achieve that.
    Having said that, it is my view that those aspirations 
can't be squelched by political considerations that are 
designed to short circuit the full voting aspirations of D.C. 
residents. I appreciate the interim steps that are being taken 
here. I appreciate the legislation that is being proposed. I 
think Chairman Davis deserves true commendation for having led 
on this issue in the way that he's chosen to do it.
    But I think in the final analysis, the full voting 
representation of D.C. residents cannot be short-circuited by 
other political considerations. I will leave to others the 
question of what form that representation takes, but it is most 
important in my view that it be provided pursuant to the 
Constitutional requirement of citizenship in the United States.
    My last point is this. As a D.C. resident, I support the 
notion of statehood for the District of Columbia. I think it's 
an important consideration. That's a personal view. But having 
said that, I think the issue of voting representation in the 
full measure can be stated in a number of ways, and I've stated 
my view on that.
    Mr. Clay. Thank you for your response, Mr. Henderson. Mr. 
Starr.
    Judge Starr. Congressman, that's an ultimate prudential 
judgment that you and others will have to make, and I'm ill 
equipped to provide guidance no that. I do want to just share 
with you the preamble to the Constitution, because we hear at 
lot and understandably about individual rights and individual 
liberties. But it's individual rights and individual liberties 
within a Federal republic, that is we do not vote as a nation, 
we vote as inhabitants of a particular State, and the 
Constitution is filled with that kind of structural language.
    And it begins at the very outset. It talks about the people 
of the United States, but in order to form a more perfect 
union, and of course that's a union of States. So I would 
simply say that the Constitution reflects a seat of government, 
a national seat of government and without, I hope, introducing 
into the world of guidance and advice, I would simply say that 
prudence might suggest that it makes sense to lift up the value 
of individual liberty in terms of the right to vote, without 
doing that which might be viewed as enormous structural damage 
to our union, that is, seeking to in effect cerate a state 
without going through the entire Constitutional process.
    So you will have your own experience by virtue of the 
amendment process, and that will guide and inform your judgment 
as to whether something short of an amendment is wise at this 
particular time.
    Mr. Clay. You don't think we're locked in with 100 U.S. 
Senators, do you? In the last 45 years, we added Alaska and 
Hawaii, and then added to the numbers in the Senate.
    Judge Starr. No, that's exactly right. As I said earlier, 
in response to a different question, I think there is no lock-
in effect here. And again, my simple point today has been that 
Congress does enjoy very broad powers under Article I, Section 
8, Clause 17. And that I think is an interesting and creative 
way to now think about the issue of individual voting rights 
within the district.
    Mr. Clay. All right. Thank you.
    Mr. Zherka. Congressman, to answer our question, I think 
clearly District residents want and deserve representation in 
the Congress and also control over their own lives, 
particularly their local laws. One of the reasons 
representation is important is because of the consistent and 
unwarranted interference of Congress in local matters.
    So as we look at representation, we're looking at different 
options to achieve representation. I think as we look at issues 
of local control, there are certainly different ways to achieve 
that as well. Statehood has been one way that would certainly 
achieve both, but the Congress is also looking at budget 
autonomy, and other issues that deal at the local control 
issue.
    But certainly District residents deserve control over their 
local affairs, as well as representation in the House and 
Senate.
    Mr. Clay. Mr. Smith.
    Mr. Smith. Congressman Clay, I think the ultimate goal has 
to be full representation for citizens of the District. And I 
think what we're doing today is a step toward achieving that 
goal. As Mr. Henderson said, it isn't clear exactly what the 
details are going to be. But as long as there is a bipartisan 
commitment to getting there, I think we are going to get there.
    But the sea change, I think that you're hearing here today, 
between now and back in the early 1980's, when we were seeking 
to get a Constitutional amendment, is I think there is a 
powerful argument available, and Judge Starr has made it today, 
that we do not need a Constitutional amendment to get there. 
This can be accomplished by simple legislation. And that I 
believe is what the Congress ought to be about.
    Mr. Clay. Ms. Werronen, if you would respond. My time is 
getting short.
    Ms. Werronen. Congressman, we are very proud of our status 
as a Federal city, and it is unique and we support at this time 
as a first step full voting rights in the House of 
Representatives.
    Mr. Trabue. Thank you. On behalf of the Board of Trade, I 
would say that the Board of Trade does support full voting 
representation for the residents of the District of Columbia. 
Like many of the panelists before us, we think this is a good 
first step toward achieving that goal.
    Mr. Clay. Thank you. I thank the panel for their responses.
    Chairman Tom Davis. Thank you very much.
    Mr. Henderson, let me just note, you supported the 23rd 
amendment, and yet that wasn't the ultimate goal, correct?
    Mr. Henderson. Correct, Mr. Chairman. And again----
    Chairman Tom Davis. You supported the non-voting delegate, 
and yet that wasn't the ultimate goal?
    Mr. Henderson. Supported the non-voting delegate and I 
think you can point to other points along the journey that we 
have made as a city with some shared State responsibilities. 
Again, some of this may be determined incrementally. We have 
certainly supported that in the past.
    And yet each stop along the way, we have reaffirmed our 
complete commitment for full voting rights. I think your bill 
today certainly precipitates a conversation about the 
importance of full voting rights, while at the same time making 
a step in the right direction on the issue of voting 
representation in a practical way that deserves consideration.
    So I think that the sea change that Walter Smith and others 
on this panel, the fact that you have been able to achieve a 
bipartisan, non-partisan approach to the important civil and 
human rights issue of full voting representation shouldn't be 
denied. I think the conversation that will proceed from this 
point forward is one about how we construct the legislative 
vehicle necessary to get the support, the 218 votes needed in 
the House, to get this thing enacted. That's a particular 
political question. Obviously you are in a better position to 
evaluate it than we. But I think it's an important step.
    Chairman Tom Davis. Thank you. And I would just add, I 
think if the House can move through the Senate, where Senator 
Hatch chairs the appropriate committee in the Senate, from 
Utah, is something that would also take into consideration at 
this point.
    Voltaire once said that he may disagree with what you say, 
but he would fight to the death to defend your right to say it. 
A lot on our side probably aren't going to like the 
representation the District gets the first time out. But I 
think I would fight to the death to say this is a basic right 
that belongs to the citizens of the District as it belongs to 
all American citizens.
    And as I said, we're fighting around the globe for this for 
people. We ought to bring it to our Nation's Capital. And any 
way we can get it done, incrementally or whatever, we want to 
continue to look at it. We want to continue to work with all of 
you as we develop a plan. I'm not sure it will go necessarily 
in this Congress, because we have some issues in the background 
that may take a little time, but not a lot of time to resolve.
    But what we are reaching is a consensus on both sides that 
this is a human right that needs to be addressed. You have all 
added a lot to the record today. I appreciate everyone taking 
their time. The record will remain open for 10 days to other 
groups who weren't able to participate in the hearing to submit 
statements.
    The hearing is adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Wm. Lacy Clay, copies of 
H.R. 1285, H.R. 381, H.R. 3709, and H.R. 4640, and additional 
information submitted for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T6625.167

[GRAPHIC] [TIFF OMITTED] T6625.168

[GRAPHIC] [TIFF OMITTED] T6625.169

[GRAPHIC] [TIFF OMITTED] T6625.118

[GRAPHIC] [TIFF OMITTED] T6625.119

[GRAPHIC] [TIFF OMITTED] T6625.120

[GRAPHIC] [TIFF OMITTED] T6625.121

[GRAPHIC] [TIFF OMITTED] T6625.122

[GRAPHIC] [TIFF OMITTED] T6625.123

[GRAPHIC] [TIFF OMITTED] T6625.124

[GRAPHIC] [TIFF OMITTED] T6625.125

[GRAPHIC] [TIFF OMITTED] T6625.126

[GRAPHIC] [TIFF OMITTED] T6625.127

[GRAPHIC] [TIFF OMITTED] T6625.128

[GRAPHIC] [TIFF OMITTED] T6625.129

[GRAPHIC] [TIFF OMITTED] T6625.130

[GRAPHIC] [TIFF OMITTED] T6625.131

[GRAPHIC] [TIFF OMITTED] T6625.132

[GRAPHIC] [TIFF OMITTED] T6625.133

[GRAPHIC] [TIFF OMITTED] T6625.134

[GRAPHIC] [TIFF OMITTED] T6625.135

[GRAPHIC] [TIFF OMITTED] T6625.136

[GRAPHIC] [TIFF OMITTED] T6625.137

[GRAPHIC] [TIFF OMITTED] T6625.138

[GRAPHIC] [TIFF OMITTED] T6625.139

[GRAPHIC] [TIFF OMITTED] T6625.140

[GRAPHIC] [TIFF OMITTED] T6625.141

[GRAPHIC] [TIFF OMITTED] T6625.142

[GRAPHIC] [TIFF OMITTED] T6625.143

[GRAPHIC] [TIFF OMITTED] T6625.144

[GRAPHIC] [TIFF OMITTED] T6625.145

[GRAPHIC] [TIFF OMITTED] T6625.146

[GRAPHIC] [TIFF OMITTED] T6625.147

[GRAPHIC] [TIFF OMITTED] T6625.148

[GRAPHIC] [TIFF OMITTED] T6625.149

[GRAPHIC] [TIFF OMITTED] T6625.150

[GRAPHIC] [TIFF OMITTED] T6625.151

[GRAPHIC] [TIFF OMITTED] T6625.152

[GRAPHIC] [TIFF OMITTED] T6625.153

[GRAPHIC] [TIFF OMITTED] T6625.154

[GRAPHIC] [TIFF OMITTED] T6625.155

[GRAPHIC] [TIFF OMITTED] T6625.156

[GRAPHIC] [TIFF OMITTED] T6625.157

[GRAPHIC] [TIFF OMITTED] T6625.158

[GRAPHIC] [TIFF OMITTED] T6625.159

[GRAPHIC] [TIFF OMITTED] T6625.160

[GRAPHIC] [TIFF OMITTED] T6625.161

[GRAPHIC] [TIFF OMITTED] T6625.162

[GRAPHIC] [TIFF OMITTED] T6625.163

[GRAPHIC] [TIFF OMITTED] T6625.164

[GRAPHIC] [TIFF OMITTED] T6625.165

[GRAPHIC] [TIFF OMITTED] T6625.166

[GRAPHIC] [TIFF OMITTED] T6625.170

[GRAPHIC] [TIFF OMITTED] T6625.171

[GRAPHIC] [TIFF OMITTED] T6625.172

[GRAPHIC] [TIFF OMITTED] T6625.173

[GRAPHIC] [TIFF OMITTED] T6625.174

[GRAPHIC] [TIFF OMITTED] T6625.175

[GRAPHIC] [TIFF OMITTED] T6625.176

[GRAPHIC] [TIFF OMITTED] T6625.177

[GRAPHIC] [TIFF OMITTED] T6625.178

[GRAPHIC] [TIFF OMITTED] T6625.179

[GRAPHIC] [TIFF OMITTED] T6625.180

[GRAPHIC] [TIFF OMITTED] T6625.181

[GRAPHIC] [TIFF OMITTED] T6625.182

[GRAPHIC] [TIFF OMITTED] T6625.216

[GRAPHIC] [TIFF OMITTED] T6625.183

[GRAPHIC] [TIFF OMITTED] T6625.184

[GRAPHIC] [TIFF OMITTED] T6625.185

[GRAPHIC] [TIFF OMITTED] T6625.189

[GRAPHIC] [TIFF OMITTED] T6625.190

[GRAPHIC] [TIFF OMITTED] T6625.191

[GRAPHIC] [TIFF OMITTED] T6625.192

[GRAPHIC] [TIFF OMITTED] T6625.193

[GRAPHIC] [TIFF OMITTED] T6625.194

[GRAPHIC] [TIFF OMITTED] T6625.195

[GRAPHIC] [TIFF OMITTED] T6625.196

[GRAPHIC] [TIFF OMITTED] T6625.197

[GRAPHIC] [TIFF OMITTED] T6625.198

[GRAPHIC] [TIFF OMITTED] T6625.199

[GRAPHIC] [TIFF OMITTED] T6625.200

[GRAPHIC] [TIFF OMITTED] T6625.201

[GRAPHIC] [TIFF OMITTED] T6625.202

[GRAPHIC] [TIFF OMITTED] T6625.203

[GRAPHIC] [TIFF OMITTED] T6625.204

[GRAPHIC] [TIFF OMITTED] T6625.205

[GRAPHIC] [TIFF OMITTED] T6625.206

[GRAPHIC] [TIFF OMITTED] T6625.207

[GRAPHIC] [TIFF OMITTED] T6625.208

[GRAPHIC] [TIFF OMITTED] T6625.209

[GRAPHIC] [TIFF OMITTED] T6625.210

[GRAPHIC] [TIFF OMITTED] T6625.211

[GRAPHIC] [TIFF OMITTED] T6625.212

[GRAPHIC] [TIFF OMITTED] T6625.213

[GRAPHIC] [TIFF OMITTED] T6625.214

[GRAPHIC] [TIFF OMITTED] T6625.215

[GRAPHIC] [TIFF OMITTED] T6625.220

[GRAPHIC] [TIFF OMITTED] T6625.117

                                 <all>

</pre></body></html>
